<html>
<title> - TELECOMMUNICATIONS, GLOBAL COMPETITIVENESS, AND NATIONAL SECURITY</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


   TELECOMMUNICATIONS, GLOBAL COMPETITIVENESS, AND NATIONAL SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON COMMUNICATIONS AND 
                                TECHNOLOGY

                                 OF THE

                           COMMITTEE ON ENERGY AND 
                                 COMMERCE
                           HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2018

                               __________

                           Serial No. 115-128
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-796 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3552455a75564046415d5059451b565a581b">[email&#160;protected]</a> 
                       


                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 ______

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                             
                             
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     3
    Prepared statement...........................................     4
Hon. Yvette D. Clarke, a Representative in Congress from the 
  State of New York, opening statement...........................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8
    Prepared statement...........................................     9
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, prepared statement..............................    62

                               Witnesses

Charles Clancy, Professor of Electrical and Computer Engineering 
  and Director, Hume Center for National Security and Technology, 
  Virginia Tech..................................................    11
    Prepared statement...........................................    13
    Answers to submitted questions...............................   105
Samm Sacks, Senior Fellow, Technology Policy Program, Center for 
  Strategic and International Studies............................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   111
Clete D. Johnson, Partner, Wilkinson Barker Knauer, LLP..........    29
    Prepared statement...........................................    31
    Answers to submitted questions...............................   116

                           Submitted Material

Letter of May 16, 2018, from Nicholas J. Pisciotta, Chief 
  Executive Officer, Sicuro Innovations LLC, to Mrs. Blackburn 
  and Mr. Doyle, submitted by Mrs. Blackburn.....................    63
Letter of May 16, 2018, from Michael O'Rielly, Commissioner, 
  Federal Communications Commission, to Mrs. Blackburn and Mr. 
  Doyle, submitted by Mrs. Blackburn.............................    65
Report on behalf of the U.S.-China Economic and Security Review 
  Commission, ``Supply Chain Vulnerabilities from China in U.S. 
  Federal Information and Communications Technology,'' April 
  2018, \1\ submitted by Mrs. Blackburn
Article, ``A U.S. Investment Strategy for Defense,'' by Andrew P. 
  Hunger, CSIS, submitted by Mrs. Blackburn......................    68
Article, ``Beijing's Cyber Governance System,'' by Samm Sacks, 
  CSIS, submitted by Mrs. Blackburn, submitted by Mrs. Blackburn.    74
Article of March 27, 2018, ``In U.S. Brawl With Huawei, Rural 
  Cable Firms Are an Unlikely Loser,'' by Drew FitzGerald and Stu 
  Woo, The Wall Street Journal, submitted by Mrs. Blackburn......    82

----------
\1\ The information has been retained in committee files and also 
  is available at  https://docs.house.gov/Committee/Calendar/
  ByEvent.aspx?EventID=108301.
Article of January 8, 2018, ``Huawei, Seen as Possible Spy 
  Threat, Boomed Despite U.S. Warnings,'' by Stu Woo, Dan 
  Strumpf, and Betsy Morris, The Wall Street Journal, submitted 
  by Mrs. Blackburn..............................................    84
Order issued April 15, 2018, by Richard R. Majauskas, Acting 
  Assistant Secretary of Commerce for Export Enforcement, 
  submitted by Mrs. Blackburn....................................    89
Article of January 12, 2018, ``US Army base removes Chinese-made 
  surveillance cameras,'' by Max Greenwood, The Hill, submitted 
  by Mr. Long....................................................   103

 
   TELECOMMUNICATIONS, GLOBAL COMPETITIVENESS, AND NATIONAL SECURITY

                              ----------                              


                        WEDNESDAY, MAY 16, 2018

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
room 2123, Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Members present: Representatives Blackburn, Lance, Shimkus, 
Latta, Guthrie, Kinzinger, Bilirakis, Johnson, Long, Flores, 
Brooks, Collins, Walters, Costello, Walden (ex officio), Welch, 
Clarke, Loebsack, Ruiz, Dingell, Eshoo, Butterfield, Matsui, 
and Pallone (ex officio).
    Also present: Representative Walberg.
    Staff present: Jon Adame, Policy Coordinator, 
Communications and Technology; Samantha Bopp, Staff Assistant; 
Daniel Butler, Staff Assistant; Kristine Fargotstein, Detailee, 
Communications and Technology; Sean Farrell, Professional Staff 
Member, Communications and Technology; Margaret Tucker Fogarty, 
Staff Assistant; Adam Fromm, Director of Outreach and 
Coalitions; Elena Hernandez, Press Secretary; Tim Kurth, Deputy 
Chief Counsel, Communications and Technology; Lauren McCarty, 
Counsel, Communications and Technology; Austin Stonebraker, 
Press Assistant; Evan Viau, Legislative Clerk, Communications 
and Technology; Everett Winnick, Director of Information 
Technology; Jeff Carroll, Minority Staff Director; Jennifer 
Epperson, Minority FCC Detailee; David Goldman, Minority Chief 
Counsel, Communications and Technology; Tiffany Guarascio, 
Minority Deputy Staff Director and Chief Health Advisor; Jerry 
Leverich III, Minority Counsel; Dan Miller, Minority Policy 
Analyst; Andrew Souvall, Minority Director of Communications, 
Member Services, and Outreach; and C.J. Young, Minority Press 
Secretary.
    Mrs. Blackburn. The Subcommittee on Communications and 
Technology will now come to order. And I recognize myself 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    I want to welcome each of you to today's hearing. It is 
entitled ``Telecommunications, Global Competitiveness, and 
National Security.''
    Our country's information technology sector is one of the 
best economic growth engines the world has ever seen. It allows 
people to communicate, be entrepreneurs, pursue educational 
opportunities. It fosters a greater efficiency across every 
single sector of the economy.
    As I have said before, information is power, and history 
makes clear that countries with the best communications have 
the best advantage. Moreover, our Nation's defense, the men and 
women in uniform who serve our Nation depend on communications. 
U.S. military superiority is built upon intelligence, 
surveillance, and reconnaissance, and the communication of this 
information to outmaneuver potential adversaries.
    The purpose of today's hearing is to understand the nexus 
between telecommunications and national security in the global 
context. These are issues the subcommittee and the Energy and 
Commerce Committee more generally understand well.
    In 2013, I authored a bill, H.R. 1468, SECURE IT, to 
promote greater voluntary sharing of cyber threats between the 
Government and the private sector, as well as among private 
sector companies. I was pleased that many of the provisions I 
authored were signed into law in 2015. Additionally, the 
National Institute of Standards and Technology, or NIST as we 
term it, has taken great strides to collaborate with the 
private sector on developing a voluntary framework of 
cybersecurity best practices.
    Last month, NIST published the latest version of its 
framework to be even more informative and useful to a broader 
array of stakeholders. In today's world where information 
literally travels at the speed of light and new innovations are 
brought to market at a dizzying pace, it is critically 
important to leverage robust information sharing about threats 
and vulnerabilities. This should include greater information 
sharing about the supply chain of hardware and software that 
make up our communications networks.
    When it comes to the supply chain, we must think about it 
over the long term. We are fully aware of the issues that the 
President has raised regarding China, Huawei, and ZTE. We are 
aware that the Commerce Department has serious concerns. These 
points merit discussion, and it is the reason our hearing is so 
timely.
    The quick and easy route would simply ban foreign vendors 
of vulnerable hardware and software from accessing our markets, 
but the marketplace for hardware and software is global, and a 
hallmark of the communications industry is scale. In time, it 
will be difficult for our domestic communications providers to 
obtain their network infrastructure from trusted sources when 
vulnerable foreign vendors acquire more and more global market 
share.
    What are the implications of all this to our Nation's 
cybersecurity? What are the implications in the race to 5G? 
What are the broader implications to our Nation's economy? And 
most importantly, what are thoughtful solutions to such a 
complex problem? These are some of the questions for today's 
hearing that we will seek to address.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome to today's subcommittee hearing entitled: 
``Telecommunications, Global Competitiveness, and National 
Security.''
    Our country's information technology sector is one of the 
best economic growth engines the world has ever seen. It allows 
people to communicate, be entrepreneurs, and pursue educational 
opportunities; it fosters greater efficiency across every 
sector of the economy. As I've said before, information is 
power, and history makes clear that countries with the best 
communications have a competitive advantage.
    Moreover, our Nation's defense--the men and women in 
uniform who serve our country--depend on communications. U.S. 
military superiority is built upon intelligence, surveillance, 
and reconnaissance, and the communication of this information 
to outmaneuver potential adversaries.
    The purpose of today's hearing is to understand the nexus 
between telecommunications and national security in a global 
context.
    These are issues this subcommittee, and the Energy and 
Commerce Committee more generally, understand well. In 2013, I 
authored a bill--H.R. 1468, SECURE IT--to promote greater 
voluntary sharing of cyber threats between the Government and 
the private sector, as well as among private sector companies.
    I was pleased that many of the provisions I authored were 
signed into law in 2015.
    Additionally, the National Institute of Standards and 
Technology, or ``NIST,'' has also taken great strides to 
collaborate with the private sector on developing a voluntary 
Framework of cybersecurity best practices. Last month, NIST 
published the latest version of its Framework to be even more 
informative and useful to a broader array of stakeholders.
    In today's world, where information literally travels at 
the speed of light, and new innovations are brought to market 
at a dizzying pace, it is critically important to leverage 
robust information sharing about threats and vulnerabilities.
    This should include greater information sharing about the 
supply chain of hardware and software that make up our 
communications networks.
    When it comes to the supply chain, we must think about it 
over the long-term. We are fully aware of the issues that the 
President has raised regarding China, Huawei, and ZTE. We are 
also aware that the Department of Commerce has serious 
concerns. This point merits discussion, and it is the reason 
our hearing is so timely.
    The quick and easy route would simply ban foreign vendors 
of vulnerable hardware and software from accessing our markets.
    But the marketplace for hardware and software is global, 
and a hallmark of the communication industry is scale.
    In time, it will be difficult for our domestic 
communications providers to obtain their network infrastructure 
from trusted sources when vulnerable foreign vendors acquire 
more and more global market share.
    What are the implications of all this to our Nation's 
cybersecurity?
    What are the implications for the race to 5G?
    What are the broader implications to our economy?
    And, most importantly, what are thoughtful solutions to 
such a complex problem?
    These are some of the questions today's hearing seeks to 
address.
    I am pleased to convene this hearing.
    I look forward to the testimony of our witnesses.
    And I yield 1 minute to the subcommittee's vice chairman, 
Mr. Lance.

    Mrs. Blackburn. And at this time, I yield my remainder of 
time to Mr. Lance.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you, Madam Chairman.
    This is a particularly timely hearing on an important 
topic. The security of our next generation networks is an issue 
that has come to the forefront. Earlier this year, a leaked 
memo from the White House recommended we nationalize our 5G 
network for national security reasons. While an extremely 
misguided and unrealistic approach, it is important that we 
secure our networks.
    Just last month, the FCC voted unanimously to move a 
proposal forward to ban Federal funds from being used to 
purchase telecommunications equipment from companies deemed a 
security threat, such as Chinese manufacturers Huawei and ZTE. 
I commend Chairman Pai and the rest of the Commission for 
taking this important step.
    ZTE has been deemed a security threat by our intelligence 
agencies and has been criticized by the Departments of Justice 
and Commerce for doing business in Iran and North Korea. Just 
yesterday, the nominee to head the National Counterintelligence 
and Security Center testified that Chinese intelligence uses 
Chinese firms such as ZTE as a resource, and he would never use 
a ZTE phone.
    I am concerned about the national security implications of 
lessening the punishments against ZTE in a trade deal with 
China. National security and the security of our networks are 
primary concerns here, and the administration must consider 
that above all else in dealing with China.
    I look forward to discussing this and other important 
issues surrounding the security of our telecommunications 
networks and the global supply chain with you today. Thank you.
    [The prepared statement of Mr. Lance follows:]

                Prepared statement of Hon. Leonard Lance

    Thank you, Chairman Blackburn and welcome to our 
distinguished panel.
    This is a particularly timely hearing on a very important 
topic. The security of our next generation networks is an issue 
that has come to the forefront recently. Earlier this year a 
leaked memo from the White House recommended we nationalize our 
5G networks for national security reasons. While an extremely 
misguided and unrealistic approach, it is important we secure 
out networks. Just last month the FCC voted unanimously move a 
proposal forward to ban Federal funds from being used to 
purchase telecommunications equipment from companies deemed a 
security threat, such as Chinese manufacturers Huawei (wah-way) 
and ZTE. I commend Chairman Pai and the rest of the Commission 
for taking this important step.
    ZTE has been deemed as a security threat by our 
intelligence agencies and has been punished by the Departments 
of Treasury and Commerce for doing business in Iran and North 
Korea. Just yesterday, the nominee to head the National 
Counterintelligence and Security Center testified that Chinese 
Intelligence uses Chinese firms such as ZTE as a resource and 
he would never use a ZTE phone.
    I am concerned about the national security implications of 
lessening the punishments against ZTE in a trade deal with 
China. National security and the security of our networks is 
the primary concern here and the administration must consider 
that above all else in their dealings with China.
    I look forward to discussing this and other important 
issues surrounding the security of our telecommunications 
networks and the global supply chain with you today.

    Mr. Lance. Madame Chair, I yield back the balance of my 
time.
    Mrs. Blackburn. The gentleman yields back.
    At this time, Ms. Clarke, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. YVETTE D. CLARKE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Clarke. I thank you, Madam Chair, and I thank our 
witnesses for coming with their expert testimony this morning.
    Communication networks in the United States increasingly 
rely on equipment and services manufactured and provided by 
foreign companies. According to the Government Accountability 
Office, more than 100 foreign countries imported communications 
network equipment into the U.S. market between 2007 and 2011.
    While the globalization of commerce and trade has created 
many benefits, these long supply chains have made it possible 
for bad actors to exploit vulnerabilities during design, 
production, delivery, and postinstallation servicing. The 
National Counterintelligence executive has noted that, quote, 
``The globalization of the economy has placed critical links in 
manufacturing supply chain under the direct control of U.S. 
adversaries,'' end quote.
    Some examples of the communications supply chain threats 
include attempts to disrupt the ability of an organization to 
operate on the internet; attempts to infiltrate a computer 
system to view, delete, and modify data; and attempts to use 
viruses or worms to extract data for use or sale. Some experts 
have even expressed concerns about the use of a kill switch, 
which could cause widespread communication outages and 
interruption in the power grid. And with the recent 
pronouncements of ZTE and Huawei, we know that this concern has 
been elevated to a national concern.
    And so, today, we look forward to hearing from you your 
views and your insights into what we can do to make sure that 
the United States is well protected.
    And I don't know if I have any colleagues that are seeking 
any time.
    Well, then, Madam Chair, I yield back.
    Mrs. Blackburn. The gentlelady yields back at this time.
    Mr. Walden, you are recognized.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Madam Chair, and thanks for holding 
this hearing on telecommunications, global competitiveness, and 
national security. These are really, really important topics 
this committee has dealt with before and will continue to deal 
with. As chairman of this very subcommittee back in 2013, I 
held a hearing on this same topic.
    These are challenges that vex us, as demonstrated by our 
Subcommittee on Digital Commerce and Consumer Protection 
subcommittee's hearing on CFIUS legislation last month.
    Discussion on these topics usually happens in a classified 
setting, so there will be limits to the conversations we can 
have today, and we understand that. But as I mentioned, the 
Energy and Commerce Committee has the expertise on 
communications technology and a key oversight role in this 
debate.
    For years, concerns have been raised about the supply chain 
and potential vulnerabilities that could be introduced into our 
communications networks. Of concern are foreign vendors that 
integrate seemingly private companies with their military and 
political institutions. There are also concerns about 
counterfeit equipment and fraud.
    In more recent months, there have been alarm bells going 
off at all levels of Government about the potential threats to 
our communications networks. As startling as these threats are, 
some of the proposed solutions can, frankly, be even more 
distressing. Mr. Lance talked about that, I think, when that 
comment emerged from the White House about nationalizing the 
system, I pointed out we are not Venezuela.
    Before committees in Congress and different Federal 
agencies launch solutions to this complex challenge without 
proper coordination and investigation, I argue that we take a 
more thorough and thoughtful approach. Any net assessment of a 
serious challenge requires some fundamental questions be asked 
at the outset. These would include: How significant is this 
problem? Is it getting better or is it getting worse? What are 
the potential solutions and potential unintended consequences? 
And most importantly, in a resource constrained environment, 
how do you prioritize the solutions?
    In the second half of the 20th century, we faced similar 
questions as our adversaries appeared to outpace us in 
strategic areas. In response, the United States invested 
heavily in research and development of cutting edge information 
and communications technologies. It is estimated the Government 
share of R&D at that time was two-thirds of the total U.S. R&D 
investment, and this laid the groundwork for both U.S. military 
superiority and unprecedented economic growth in America. But 
today, the ratio of Government to private R&D investments is 
completely reversed. Moreover, the barriers to entry in advance 
technology have been substantially reduced as costs have come 
down, research has globalized, and formally advanced 
technologies are now readily available.
    So our competitors are more sophisticated than before, and 
some use their understanding of market dynamics to manipulate 
the market in their favor. And we simply can't replicate 20th 
century strategies for a 21st century economy. We have to be 
very wary of protectionist policies. As the chairman pointed 
out in her opening statement, the marketplace for technology is 
global. Nor can we rely on Government-centric approaches to 
simply spend our way out of this problem. Simply reacting to 
our competitors in symmetric tit-for-tat responses is never a 
winning strategy. If you are reacting, you are probably losing.
    A better approach is to find and exploit the asymmetries 
that benefit us, the core competencies that define our economy 
and our society more broadly. This means development and early 
adoption of next generation disruptive technologies and doing 
that here. It means strengthening our private sector through 
greater information sharing about threats. It means better 
coordination among Government agencies so the private sector 
knows where to go when they encounter vulnerabilities in 
networks and not burdening them with redundant, conflicting 
regulations or unnecessary costs. It means greater 
dissemination of best practices and empowering the 
inclusiveness and transparency of standard setting bodies. We 
can either lead the world in these areas or we will have to 
follow it.
    Today's hearing is a very important step in leadership. I 
appreciate the chairwoman's holding this hearing and her 
leadership on all of these issues, and I look forward to the 
testimony of our witnesses. I would tell you in advance we have 
two hearings going on simultaneously, no surprise for this full 
committee, so I will be coming and going, as will some other 
Members, but we do appreciate your contribution to our better 
understanding of the threats we face and the solutions that 
make sense in a global competitive environment.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Madame Chairman. I want to welcome our witnesses 
to this hearing on ``Telecommunications, Global 
Competitiveness, and National Security.''
    These topics are not just timely, but ones which we have 
long set aside partisan differences, as we counter national 
security threats and empower our innovators to compete around 
the world. As chairman of this subcommittee in 2013, I held a 
hearing on this very same topic. These are challenges that 
still vex us, as demonstrated by our Subcommittee on Digital 
Commerce and Consumer Protection subcommittee's hearing on 
CFIUS legislation just last month
    Discussion on these topics usually happens in a classified 
setting, so there will be limits on our conversation today. 
But, as I mentioned, the Energy and Commerce Committee has the 
expertise on communications technology and a key oversight role 
in this debate.
    For years, concerns have been raised about the supply 
chain, and potential vulnerabilities that may be introduced in 
our networks. Of concern are foreign vendors that integrate 
seemingly private companies with their military and political 
institutions.
    There are also concerns about counterfeit equipment and 
fraud.
    In more recent months, there have been alarm bells going 
off at all levels of Government about the potential threats to 
our communication networks.
    As startling as these threats are, some of the proposed 
solutions can be even more distressing.
    Before committees in Congress, and different Federal 
agencies, launch solutions to this complex challenge without 
proper coordination and investigation, I argue that we take a 
more thorough approach.
    Any net assessment of a serious challenge requires some 
fundamental questions be asked at the outset:
    How significant is the problem?
    Is it getting worse?
    What are the potential solutions and potential unintended 
consequences?
    Most importantly, in a resource constrained environment, 
how do you prioritize solutions?
    In the second half of the twentieth century, we faced 
similar questions as our adversaries appeared to out-pace us in 
strategic areas.
    In response, the United States invested heavily in the 
research and development of cutting-edge information and 
communications technology.
    It's estimated the Government's share of R&D at that time 
was two-thirds of total U.S. R&D investment. This laid the 
ground work for both U.S. military superiority, and 
unprecedented economic growth.
    But today, the ratio of Government-to-private R&D 
investment is completely reversed. Moreover, the barriers to 
entry in advanced technology have been substantially reduced as 
costs have come down, research is globalized, and formerly 
advanced technologies are now readily available.
    Our competitors are more sophisticated than before, and 
some use their understanding of market dynamics to manipulate 
the market in their favor.
    We cannot simply replicate 20th century strategies for the 
21st century economy, and we must be wary of protectionist 
policies. As the chairman pointed out in her opening 
statement--the marketplace for technology is global.
    Nor can we rely on Government-centric approaches to simply 
``spend'' our way out of this problem.
    Simply reacting to our competitors in symmetric, tit-for-
tat responses is never a winning strategy.
    If you are reacting, then you are losing.
    A better approach is to find and exploit the asymmetries 
that benefit us--the core competencies that define our economy, 
and our society more broadly.
    This means development and early adoption of the next 
generation of disruptive technologies.
    It means strengthening our private sector through greater 
information sharing about threats.
    It means better coordination among Government agencies, so 
the private sector knows where to go when they encounter 
vulnerabilities in networks, and not burdening them with 
redundant, conflicting regulations or unnecessary costs.
    It means greater dissemination of best practices and 
empowering the inclusiveness and transparency of standards-
setting bodies.
    We can either lead the world in these areas, or we can 
follow it.
    Today's hearing is a step in the direction of leadership, 
and I look forward to the captains of industry in technology 
and telecommunications heeding our call.
    I thank the chairman for convening this hearing, and I look 
forward to the testimony of the witnesses.

    Mr. Walden. Madame Chair, I yield back the balance of my 
time.With that, Madam Chair, unless any Members on the 
Republican side want the remainder of my time, I would be happy 
to yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Pallone, you are recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Madam Chairman.
    American broadband providers spend tens of billions of 
dollars every year to improve and extend our communications 
networks. The return on this investment is that our networks 
are fast, powerful, and global, but these benefits can be 
turned against us in an instant if the networks are not also 
secure. Every day, we hear about hackers cracking our systems 
and stealing our data, but another risk lurking in our networks 
may be even more dangerous: other nations quietly watching 
everything that we do online.
    Unfortunately, a vast majority of our network equipment is 
now manufactured overseas by foreign companies. Most of this 
equipment works well and causes no problems, but our 
intelligence agencies have identified certain companies like 
Huawei and ZTE from China as posing specific threats to our 
national security. This equipment may have built in back doors 
that allow other countries to vacuum up all of our data. Once 
installed, these back doors can be nearly impossible to detect. 
And these risks are so serious that it led the Trump 
administration to float the idea of just building a federalized 
wireless network. While this solution was widely panned, the 
underlying threat that led to this proposal is real.
    On the other hand, U.S. networks depend on equipment from 
foreign companies as they race to build next generation 
networks, like 5G wireless technologies. For many broadband 
providers, less expensive Chinese equipment may be the only 
option. And these issues are complex. But rather than crafting 
a coherent plan forward, the Trump administration has made this 
problem significantly more difficult.
    With a tweet, the President muddled his own foreign policy, 
if he even had one, after the Commerce Department announced 
strong sanctions against ZTE for risking our national security. 
This weekend, the President tweeted that he is now worried 
these sanctions will cost jobs in China. And this makes 
absolutely no sense, in my opinion. That is why we need to hold 
more hearings like this one.
    The public needs to hear more about the national security 
risks at play, and Congress needs to spend more time 
understanding potential options. The worst thing we can do is 
to rush to act without evaluating unintended consequences and 
whether certain proposals can even solve the problem.
    But, unfortunately, some of our colleagues on the Armed 
Services Committee are suggesting we do just that. A proposal 
has been put forward as part of the National Defense 
Authorization Act that would cut off access to a wide array of 
network equipment without considering how to manage the risk to 
Americans. Worse, these provisions in the bill have been 
specifically crafted to circumvent our jurisdiction, and 
maneuvers like this rarely result in good policy.
    Rather than take rash action, Congress must carefully craft 
a coherent plan subject to the rigors of regular order in the 
committees of expertise like ours. Our plan should make our 
networks both more robust and more secure. We are dealing with 
a complicated relationship between the future of our 
communications networks and national security, and these issues 
should not be taken lightly. So I urge my colleagues to oppose 
these efforts. We must find a proper balance that keeps our 
country safe, while ensuring that every American has access to 
powerful next generation broadband networks.
    And finally today, Madam Chairman, I wanted to make a 
bittersweet announcement. Unfortunately, David Goldman, our 
chief counsel on this subcommittee, will be leaving at the end 
of this month to pursue an opportunity in the private sector, 
so this is actually his last hearing. He is over there on my 
left. And I say this is bittersweet because over the last 3 
years, David has been an invaluable part of our committee team. 
He has provided us not only critical policy expertise, but also 
strong strategic guidance that helped lead to the passage of 
the bipartisan RAY BAUM's Act, for example, which included a 
lot of important Democratic priorities, including the SANDy 
Act.
    And David, I think many of you know, has a long career of 
public service, including time at the FCC and in the Senate, 
God forbid, but, David, you will be missed, and we wish you 
nothing but the best in your future endeavors. Thank you so 
much. Thank you, David.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    American broadband providers spend tens of billions of 
dollars every year to improve and extend our communications 
networks. The return on this investment is that our networks 
are fast, powerful, and global. But these benefits can be 
turned against us in an instant if the networks are not also 
secure.
    Every day we hear about hackers cracking our systems and 
stealing our data. But another risk lurking in our networks may 
be even more dangerous: other nations quietly watching 
everything we do online.
    Unfortunately, a vast majority of our network equipment is 
now manufactured overseas by foreign companies. Most of this 
equipment works well and causes no problems. But our 
intelligence agencies have identified certain companies like 
Huawei and ZTE from China as posing specific threats to our 
national security.
    This equipment may have built-in backdoors that allow other 
countries to vacuum up all of our data. Once installed, these 
backdoors can be nearly impossible to detect.
    These risks are so serious that it led the Trump 
administration to float the idea of just building a federalized 
wireless network. While this solution was widely panned, the 
underlying threat that led to this proposal is real.
    On the other hand, U.S. networks depend on equipment from 
foreign companies as they race to build next-generation 
networks, like 5G wireless technology. For many broadband 
providers, less expensive Chinese equipment may be the only 
option.
    These issues are complex. But rather than crafting a 
coherent plan forward, the Trump administration has made this 
problem significantly more difficult. With a tweet, the 
President muddled his own foreign policy--if he had one. After 
the Commerce Department announced strong sanctions against ZTE 
for risking our national security, this weekend the President 
tweeted that he is now worried these sanctions will cost jobs 
in China. This makes absolutely no sense.
    That's why we need to hold more hearings like this one. The 
public needs to hear more about the national security risks at 
play. And Congress needs to spend more time understanding 
potential options. The worst thing we can do is to rush to act 
without evaluating unintended consequences and whether certain 
proposals can even solve the problem.
    Unfortunately, some of our colleagues on the Armed Services 
Committee are suggesting we do just that. A proposal has been 
put forward as part of the National Defense Authorization Act 
that would cut-off access to a wide array of network equipment 
without considering how to manage the risks to Americans. 
Worse, these provisions in the bill have been specifically 
crafted to circumvent our jurisdiction. Maneuvers like this 
rarely result in good policy.
    Rather than take rash action, Congress must carefully craft 
a coherent plan subject to the rigors of regular order in the 
committees of expertise like ours. Our plan should make our 
networks both more robust and more secure. We are dealing with 
a complicated relationship between the future of our 
communications networks and national security. These issues 
should not be taken lightly.
    I urge my colleagues to oppose these efforts. We must find 
a proper balance that keeps our country safe while still 
ensuring that every American has access to powerful next-
generation broadband networks.
    Finally today, a bittersweet announcement, David Goldman, 
our chief counsel on this subcommittee, will be leaving at the 
end of this month to pursue an opportunity in the private 
sector. This is his last hearing. I say this is bittersweet 
because, over the last 3 years, he's been an invaluable part of 
the committee team. David has provided us not only critical 
policy expertise but also strong strategic guidance that helped 
lead to the passage of the bipartisan RAY BAUM Act, which 
included a lot of important Democratic priorities, including 
the SANDy Act. David has a long career of public service--
including time at the FCC and in the Senate.
    David, you'll be missed, and we wish you nothing but the 
best in your future endeavors.
    Thank you, I yield back.

    Mr. Pallone. I don't think anybody wants my time, so I will 
yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    And we add our well wishes to those that we are sending to 
David for a job well done and hope for the future.
    At this time, this concludes our Member opening statements. 
All Members are reminded that, pursuant to committee rules, 
your statements will be made a part of the permanent record.
    And to our witnesses, we welcome you. We appreciate that 
you are here today. As you see, this is something that has 
bipartisan concern and attention from our committee.
    And for our panel for today's hearing: Dr. Charles Clancy, 
director and professor at the Hume Center for National Security 
and Technology at Virginia Tech; Ms. Samm Sacks, senior fellow 
at the Technology Policy Program at CSIS; and Mr. Clete 
Johnson, a partner at Wilkinson Barker Knauer.
    You all are welcome. We appreciate that you are here today.
    We are going to begin the testimony today with you, Dr. 
Clancy. You are now recognized for 5 minutes for your 
statement.

   STATEMENT OF CHARLES CLANCY, PROFESSOR OF ELECTRICAL AND 
  COMPUTER ENGINEERING AND DIRECTOR, HUME CENTER FOR NATIONAL 
  SECURITY AND TECHNOLOGY, VIRGINIA TECH; SAMM SACKS, SENIOR 
  FELLOW, TECHNOLOGY POLICY PROGRAM, CENTER FOR STRATEGIC AND 
INTERNATIONAL STUDIES; AND CLETE D. JOHNSON, PARTNER, WILKINSON 
                       BARKER KNAUER, LLP

                  STATEMENT OF CHARLES CLANCY

    Dr. Clancy. Thank you.
    Chairman Blackburn, subcommittee members, my name is 
Charles Clancy. I am a professor of electrical and computer 
engineering at Virginia Tech. I am a recognized expert in 
wireless security, have held various leadership roles within 
international standards and technology organizations. And at 
Virginia Tech, I lead a major university program focused on the 
intersection of telecommunications, cybersecurity, and national 
security.
    Prior to joining Virginia Tech in 2010, I served as a 
research leader in emerging mobile technologies at the National 
Security Agency.
    It is my distinct pleasure to address this committee again 
on topics of critical national importance.
    For the past 20 years, major forces have reshaped the 
telecommunications industry here in the United States and 
globally. Titans of the 20th century like Motorola and Lucent 
have faded and given rise to innovators of the 21st century 
like Apple and Cisco. These shifts have given birth to a global 
marketplace, which in turn has resulted in a global supply 
chain, a topic of interest in the hearing today.
    Supply chains for telecommunications are complex, as has 
been noted. They include development of intellectual property, 
standards; fabrication of components and chips; assembly and 
test of devices; development of software and firmware; 
acquisition, installation, management of devices and 
operational networks; and the data and services that operate 
over those global networks. Competing in a global marketplace 
drives where and how each portion of the supply chain is 
executed.
    An example I think that is pertinent is the modern supply 
chain of the Apple iPhone. Over 700 individual suppliers from 
30 countries provide equipment and components into the Apple 
iPhone. It is one of the most sophisticated and complicated 
supply chains of any consumer electronic device, while the 
ultimate manufacturing happens in China where there are cameras 
from Japan, displays from Korea, and computer processors from 
Taiwan.
    Only about 7 percent of the suppliers for the Apple iPhone 
are U.S.-based companies, to include chip manufacturers like 
Qualcomm and Intel, although their chips are actually 
manufactured in Korea and Taiwan. I think of note is the fact 
that much of the chip manufacturing industry is now offshore, 
with two-thirds of that industry operating out of China and 
Taiwan, and the United States only accounting for 8 percent.
    Another interesting statistic to look at is standards. I 
personally have observed the rise of Chinese participation in 
standards bodies grow from almost nothing in 2005 to a 
commanding presence by 2010. By 2023, if current trajectories 
hold, Huawei will be the number one filer of intellectual 
property and the number one author of international standards 
within the Internet Engineering Task Force, outpacing Cisco in 
the next few years, based on current trends.
    They have accomplished this not by buying American 
companies, but by buying American innovators with rigorous and 
competitive bonus packages for those who compete in these 
standards organizations. And this has happened completely--is 
invisible to the CFIUS process because it doesn't involve 
mergers and acquisitions.
    So while several Chinese companies, as has been noted so 
far, have clearly taken shortcuts from theft of intellectual 
property to product sales to embargoed countries, China is 
undeniably part of the supply chain. So as mentioned, it is a 
complex ecosystem, and securing it requires, I think, a nuanced 
approach.
    So as we look at securing the supply chain, I think the 
number one piece of advice is that really it needs to be an 
approach based on risk management. The supply chain threat--the 
cyber threat to the United States is real and tangible. Supply 
chain operations are among the most pernicious and difficult to 
detect. So a supply chain risk management approach that cuts 
across different technologies, sectors, and components of the 
supply chain I think is important.
    One critical aspect of that is to look at the criticality 
of individual components. The criticality of a cell phone, for 
example, is very different than that of a core internet router. 
And so the risk management approach that goes along with that, 
I think, needs to reflect criticality of the component that is 
being considered.
    I think that the NIST cybersecurity framework provides a 
great starting point for formulating such a strategy. It 
represents a shift away from a compliance-based approach, such 
as banning particular companies I think would be representative 
of a compliance-based approach to solving the problem, and more 
towards a risk management approach where the risks associated 
with the each component are quantified.
    So recommendations moving forward. I think that we need a 
thorough assessment of supply chains for critical 
infrastructure. I think this needs to happen on a recurring 
basis. And where there are gaps, those gaps need to be 
identified and prioritized. Those priorities can then help 
inform how we foster a competitive domestic industry to fill 
those gaps in a way that those actions can be done in a 
globally competitive way.
    Thank you.
    [The prepared statement of Dr. Clancy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    Ms. Sacks, you are recognized.

                    STATEMENT OF SAMM SACKS

    Ms. Sacks. Madam Chairman Blackburn, Ranking Member 
Pallone, members of the committee, thank you for the 
opportunity to testify today.
    My testimony reflects my experience as an analyst of 
Chinese technology policy for more than a decade. I have not 
only worked with the U.S. Government, but also in the 
commercial sector with leading multinational companies in 
China. These complex structural challenges require a deep 
understanding of the commercial and the national security 
dimensions of our trade and investment relationship with China.
    The Chinese leadership is in the midst of building the most 
extensive Governance system for information communications 
technology of any in the world. This is part of President Xi 
Jinping's vision of building China into what he has referred to 
as a cyber superpower.
    Today, I would like to discuss three implications for U.S. 
ICT companies doing business with China. First, companies face 
at least seven different kinds of security reviews of ICT 
products and services. These are essentially black box reviews. 
We have no idea what they will entail, in some cases, who will 
conduct them. They can cover network products and services, 
data that has to be exported, internet technologies. The list 
is broad, and it gives the Government discretion to do as it 
wants using these reviews as channels to review source code and 
also delay or block market access.
    Second, many U.S. companies and China assume that data 
localization will be a reality of their operations in China, 
despite these rules still being in draft. Data localization is 
not only a market access barrier, but it is another tool for 
the Government to gain visibility into networks and digital 
information.
    Third, U.S. companies face informal pressures in China, 
even in the absence of specific regulation. This is 
particularly in the case in areas referred to as core 
technologies where the Government has decided to double down on 
reducing reliance on foreign suppliers. This could include 
advanced semiconductors, certain kinds of software, the 
hardware and algorithms behind artificial intelligence systems.
    So in short, the aperture for ICT companies doing business 
with China is rapidly closing. So what should be done?
    We are correct to address areas where we have leverage with 
Beijing. We have seen that Beijing does not respond absent of 
external pressure. But the challenge is that U.S. Chinese and 
technology development, supply chains, commercial markets are 
tightly intertwined. Unilateral actions that isolate the United 
States will undermine U.S. economic prosperity, our 
technological leadership, and our capacity for innovation.
    In confronting China, we must have a clear understanding 
about the consequences of our actions and where there will be 
costs to ourselves. I have three recommendations.
    First, we should coordinate with allies and partners to 
create multilateral pressure. We have seen this work in the 
past. In 2009, a coalition of U.S., Japanese, European business 
and policy leaders created pressure that convinced China to 
suspend rules that would have required a type of surveillance 
screening software on computers in China. Unilateral action 
will compel China to retaliate against U.S. companies, leading 
Beijing to double down on the very structural problems that we 
are trying to address.
    Second, we need channels to work with Chinese private 
sector players whose interests in some cases actually are more 
aligned with ours than some might think. Chinese companies need 
to compete globally in commercial markets and are often 
hindered by their own government.
    Third, we must play offense by investing in our own R&D, 
infrastructure, STEM education, and a capital market that 
rewards investment. China will continue to invest in closing 
the technology gap with the United States regardless of U.S. 
actions, so we must be able to compete through our own 
technological and economic leadership.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Sacks follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Johnson, you are recognized for 5 minutes.

                 STATEMENT OF CLETE D. JOHNSON

    Mr. Johnson. Thank you for the opportunity to share my 
perspective with you on this critical, bipartisan issue. My 
testimony today reflects lessons from my experience with supply 
chain security issues, multiple Government-private sector 
positions, including as a logistics officer in the U.S. Army 
and as counsel for the Senate Intelligence Committee, the FCC, 
and the Department of Commerce.
    Now at Wilkinson Barker and Knauer, I advise clients 
navigating this complex security and market environment, 
particularly through partnership with the Federal Government. 
My advice to clients also draws on these experiences, but the 
views I express today are my own.
    This committee well knows that the global supply chains for 
hardware-software services that make up the world's internet 
and communications technology ecosystem raise complex national 
security, strategic, economic, business, and technological 
concerns. The United States has long played the leading role in 
advancing these world changing tech developments, and 
addressing security concerns in a way that further advances 
these innovations is absolutely crucial to maintaining that 
U.S. leadership.
    As we advance to a thoroughly connected 5G world, the 
capability of bad actors to use these technologies and to 
leverage their supply chains for IP theft, cyber espionage, 
sabotage, and even warfare presents acute threats. These are 
well-funded, purposeful, sophisticated nation-state 
adversaries, spies, criminals, other malicious actors, and they 
are working hard to find openings for their nefarious purposes. 
And many such openings are there to be found.
    The threats and vulnerabilities are real and they manifest 
in different ways at all levels of the global supply chain, 
beginning with the Chinese and Russian companies identified in 
recent Government actions. The actions that Congress and the 
administration have taken in recent months to address these 
concerns constitute a significant and welcome intensification 
of policy activity. We are at an inflection point on these 
issues for good reason, and we need to do this right. The 
issues are highly complex, as has been noted, and solutions 
must take root in a global market in which rapid business 
developments and the practical realities of the supply chain 
challenge traditional boundaries and legal jurisdictions. The 
challenges call for private sector leadership in close 
collaborative engagement with Government partners through clear 
and effective processes.
    In recent months, there have been more than a dozen new 
Government actions on these issues, and perhaps the most 
important is the FCC proposal championed by Chairman Pai and 
unanimously adopted last month to prevent Government funds from 
purchasing technology or services from companies that pose a 
national security threat to U.S. communications infrastructure.
    This process will significantly advance this policy 
discourse and can be a lever to move the whole Government and 
the market in the right direction. The market needs clear, 
practical guidance that derives from well-informed processes 
with input from experts from throughout the Government as well 
as from the private sector stakeholders who know the market 
best.
    Restrictions on the three companies identified in last 
year's defense authorization act are really the easy step. The 
more difficult questions have to do with how these policies 
will be implemented, how they will be updated, possibly 
expanded in the future.
    So a few high level thoughts on the FCC proposal, which is 
targeted to address supply chain security for networks 
supported by public funds but has implications that are 
precedent setting and potentially much more far reaching.
    Identifying national security threats is a function of our 
intelligence, law enforcement, defense, and homeland security 
agencies, so as the FCC implements this rule, there will need 
to be thorough coordination through the Government to ensure 
that new requirements are fully aligned with national security 
decisions by the administration and Congress and that they 
derive from broader interagency policy processes or statutory 
requirements.
    DHS, as the sector-specific agency for the communications 
and IT sectors should coordinate these efforts with lots of 
input from the Department of Commerce as well as input from the 
Departments of State, Justice, Defense and, yes, the FCC. To 
promote a collaborative partnership with industry, sensitive 
private sector information should be formally protected under 
the Protected Critical Infrastructure Information Act, which 
prohibits disclosure of protected information under FOIA and 
use in litigation or regulatory enforcement actions.
    In short, the FCC's actions in the month and years ahead 
should derive from and they should further advance processes 
that are built on principles of industry leadership and 
Government-industry partnership.
    I look forward to further fleshing out these thoughts in 
answers to your questions. Thank you.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentleman yields back.
    And we thank you all for your statements. I will begin the 
questioning and recognize myself for 5 minutes.
    Mr. Johnson, I want to come to you first. You talked about 
in your testimony how complex this challenge is and the need 
for collaboration, and I think we all agree with that. And we 
appreciate your background and the holistic view that you bring 
to looking at this and you know how and are familiar with the 
legislation passed in 2015 and how that looks at a clear and 
effective process for the public-private collaboration in the 
cyber realm. But the law was not designed for threats to the 
supply chain. And Ms. Sacks mentioned data transfer and things 
of that nature in her testimony.
    So let's look at and talk about a formalized process for 
information sharing for the supply chain between the public and 
the private sectors, and I would like to hear you weigh in on 
that.
    Mr. Johnson. Absolutely. And, Madam Chairman, you and your 
colleagues on both sides of the aisle and both sides of this 
Hill should be commended for the landmark legislation, the 
Cyber Information Sharing Act. What it provided were paths and 
legal clarity on the types of cyber threat information that can 
be shared between industry and the Government, and Government 
back to industry, and also between industry players, along with 
privacy protections and other protections.
    And what that--that was a landmark effort because it 
created protections for that sharing that provide general 
counsels and companies across the country certainty that if 
they are engaging in this type of sharing, they are not--they 
are actually helping their legal risk posture as opposed to 
contributing to it or taking risk.
    What it did is it focuses on tactical and operational 
information sharing. It is basically sharing ones and zeros 
digitally and by machines. So it is about the here and now 
threat environment and what is happening on the network in this 
instance. And it is about diagnostic type information.
    What we need in this supply chain arena, and I mentioned 
the protected critical--excuse me, Protected Critical 
Infrastructure Information Act, and we will talk about that a 
little bit more, what we need is more of an operational and 
strategic. So as opposed to tactical and operational, you start 
with operational, but it is also a strategic engagement between 
private sector entities and the expert Government agencies 
about candid assessments of what they are doing, what is 
working, what is not working, and in the area of supply chain, 
what they have, what they are seeing, what they are worried 
about, and what the Government is worried about.
    Mrs. Blackburn. OK. Let me ask you about that. We have done 
a lot of work in this committee on rural broadband, and Ms. 
Clarke and I have done a lot of work together on unserved 
areas. Whether it is urban, as in her district, or rural, as in 
my district. So when you look at that, how do you ensure that 
supply chain information sharing is disseminated to those 
smaller broadband providers, whether they be urban, as in her 
district, or rural, as in mine? Because they really do lack the 
staff and the sophistication to handle that.
    Mr. Johnson. That is a great way to look at that question 
because it speaks to what is the value to the company of this 
engagement. Are they doing it as a service to the Government? 
Are they taking extra time to do it? Or is it something that 
adds value to their bottom line because it creates efficiencies 
and an information environment that they need but they don't 
have other ways to get?
    So the best way to provide value to those low-margin rural 
and urban smaller providers is to make it worth their while to 
come in and talk to the Government about what they see, what 
they have got, and how the Government can help them, including 
by giving them clear guidance about it is not a good idea to go 
in this direction.
    Mrs. Blackburn. I thank you for that.
    I have only got 30 seconds left. And, Ms. Sacks, I have 
got, let's see, three questions that I wanted to come to you 
on, but I tell you what I am going to do. I am going to submit 
them for the record for you to answer back to us. Because I 
appreciate your testimony and how you laid out what you think 
the challenges are and then laid out the three steps, and I 
wanted to drill down on that a little bit further, but I will 
submit this.
    I yield to Ms. Clarke 5 minutes for her questions.
    Ms. Clarke. I thank you, Madam Chairwoman.
    As American companies continue to work through preparations 
for 5G, we often focus on domestic issues. And I think that 
taking such a narrow approach can cause people to overlook the 
issues with making foreign components so integral to our supply 
chain. For instance, small businesses can often only get access 
to foreign-made equipment, which is often less expensive. But 
this equipment is also more likely to be subject to sanctions. 
For all the steps the FCC is taking to eliminate deployment 
regulations, it won't matter if providers can't get access to 
equipment made by other manufacturers.
    So, Mr. Johnson, just drilling down on the practical 
applications, what does the landscape look like for small 
businesses who use Huawei and ZTE equipment?
    Mr. Johnson. It depends company by company. I think looking 
across the country, there are a number of providers of the 
various types of equipment and services that Huawei and ZTE 
provide, and I think that will be the case regardless of their 
status in the U.S. market. They have a relatively small share 
of the U.S. market. I think in Huawei's case, I think their 
U.S. revenue is less than 1 percent of their global revenue. 
And in each of the areas that they lead various types of 
equipment, various types of devices, various types of services, 
there are robust competitors in each of those arenas, as well 
as, you know, both in the case of global companies and also in 
the case of smaller startups that are trying to break into the 
market.
    So the record that is being created at the FCC, this is one 
of the reasons why this is such an important proceeding. For 
the first time, on June 1, with all the comments due on that 
proceeding, there will be a public record to answer this 
question, what is the effect, and then there will be another 
reply round. And I think we are going to get a lot of 
information out of that that will help illuminate how this 
affects individual companies and how it affects certain parts 
of the market.
    Ms. Clarke. So do you think that the domestic manufacturing 
market is capable of filling those gaps left by Huawei and ZTE?
    Mr. Johnson. I think that the--as Dr. Clancy mentioned, the 
market has changed in pretty significant ways in recent years, 
and it might be better to say it as opposed to domestic 
manufacturing, there certainly is domestic manufacturing in 
some areas, but it may be better to look at it as a trusted 
supplier manufacturing, which can take--can span continents and 
often does touch China. And the competition among trusted 
suppliers is robust and dynamic, and I think that if there is a 
small vacuum that is created by any prohibition or restriction 
pertaining to Huawei or ZTE, that market will probably respond 
to that pretty quickly.
    Ms. Clarke. So to the panel, given that many small 
businesses serving low-income communities rely heavily on ZTE 
handsets, I am particularly concerned about the fallout of the 
sanctions on Lifeline subscribers. What role can Congress play 
in easing some of the burdens small businesses will encounter 
in replacing ZTE handsets with secure alternatives? Any ideas 
out there?
    Dr. Clancy. I would say that we need to differentiate a 
handset from a core internet router. There are very different 
risks associated with that. The risks associated with a ZTE 
handset, in my opinion, are much lower to national security 
than, for example, having core internet routers or core 
cellular network or 5G equipment from ZTE. So I think, in 
particular, as you look at the NDAA language, the ability to 
clarify the difference between core infrastructure and edge 
devices is important and would help, I think, address your 
concern.
    Ms. Sacks. I would like to add to Dr. Clancy's comments 
that we leave it to the security experts to differentiate among 
the specific risks and design mitigation strategies around 
that, particularly as Chairman Walden mentioned, we need to 
prioritize resources accordingly. I think it is important that 
the United States does not take a sweeping approach to banning 
companies based on national origin, but instead, looks at the 
specific threats posed by equipment. And policies need to also 
take into account the fallout, the repercussions for U.S. 
companies and the U.S. economy to those approaches.
    Mr. Johnson. Ma'am, I would add to that that the threat 
based on handsets and individual devices is narrower. It does 
pertain potentially to the holder of that device, but probably 
only to that person. And so there is an issue of if you are a 
sensitive person, you probably want to be careful about what 
device you hold. And I think as we move forward through this 
process, we want to make sure that low-income people are not 
are not the subject of lesser security than sensitive personnel 
are.
    Ms. Clarke. I yield back, Madam Chair. Thank you very much.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Latta, 5 minutes.
    Mr. Latta. Well, thank you, Madam Chair. Thanks very much 
for having this hearing today. It is very, very important.
    I want to thank our panelists for being with us today, 
because we have talked about this issue in many hearings and a 
lot of outside discussions as to how critical this is.
    And if I--Dr. Clancy, if I can start with you. In your 
testimony, you talk about the risk management that comes down 
to telecommunications companies need to consider. You say the 
criticality of each component in their network and the entire 
supply chain for each product, and you also say it is 
financially impossible to eliminate that risk. And at the same 
time, in your testimony, you talk about the over 700 suppliers 
from 30 countries that provide components, and you are talking 
about the Apple iPhone, with only 7 percent of that coming from 
U.S. companies.
    How do we give confidence to the consumers out there 
through the companies that, you know, these products that they 
are using are secure, when we see from your testimony at the 
same time that, you know, it is impossible to eliminate all 
that risk at that time?
    Dr. Clancy. So my comments with respect to the iPhone were 
merely to illustrate how complex supply chains are and how many 
different parts of the world they touch, not necessarily 
indicating that that particular supply chain posture is good or 
bad. I think that from a consumer perspective, there needs to 
be confidence that the products and services that they are 
using meet their security thresholds. I think you also need to 
consider the motivations of hackers and adversaries.
    The specific comment about being financially and feasible 
to eliminate all risk, any determined adversary with enough 
time and resources is going to be able to penetrate a target 
network. So as you look at a risk management approach, you need 
to be able to identify what the most sensitive parts of your 
network are, be able to fortify those as much as possible 
against those risks, whether it be a supply chain risk or it be 
an active cyber attack risk, and then make sure you are 
prioritizing those investments based on the criticality of the 
individual components.
    So I think that would be--again, my view, again, supply 
chain risk management looking at criticality of the devices, 
how the devices are used in the network, and the supply chains 
associated with each one I think is really, I think, the best 
strategy.
    Mr. Latta. Let me follow up with another question to you. 
As the FCC, Congress, and other Federal agencies look at ways 
to prevent public funds from supporting suppliers that pose a 
threat to national security, who should be making the 
determinations as to which suppliers pose a real threat?
    Dr. Clancy. So that is an excellent question. Obviously, we 
have seen either regulatory or legislative approaches to 
selecting those companies. I think that that process is, I 
think, perishable, and there needs to be a more modular way of 
identifying risks in the supply chain. While companies like 
Huawei, ZTE, and Kaspersky as well may represent specific 
examples of supply chain risk, there are many component vendors 
as well that may present supply chain risk, depending on the 
type of equipment they are being integrated into.
    So I think there needs to be a role within the Federal 
Government for assessing and understanding the entire supply 
chain and assessing the risk of specific vendors in that supply 
chain. And then, as the chairwoman and Mr. Chairman mentioned, 
was the ability for that information to be shared with industry 
as they look to construct and manage the risk associated with 
their supply chain.
    Mr. Latta. One more question, and I am not picking on you 
here. Is there sufficient competition in the vendor markets to 
even allow a telecommunications provider to have realistic 
options to purchase economical and secure equipment?
    Dr. Clancy. I believe so. I think that, as was pointed out, 
the Huawei market share and ZTE market share, for example, is 
very small, and there are a number of other vendors of similar 
price point equipment that could be selected as an alternative. 
I think that we may need investment in U.S. industry, identify 
where the gaps are in U.S. supply chain in particularly 
critically important aspects in order to foster domestic 
competitiveness on a global market in order to expand options.
    Mr. Latta. Let me ask, how do we foster that to get that 
more competitiveness than in the U.S. market?
    Dr. Clancy. So depending on precisely where the risk is, 
you could look at research and development investments, you 
could look at economic investments to try and bolster 
particular industries. Let's say, for example, there was an 
effort to--there was a determination that the fact that we have 
all of the chip manufacturing is happening offshore, right, I 
think that could be an area where if you want to foster a chip 
fabrication industry in the United States, there are a wide 
range of incentives that you can put together to try and 
accomplish that. Now, whether or not that makes economic sense, 
I don't know, but I think there are levers there.
    Mr. Latta. Thank you. Madam Chair, my time has expired, and 
I yield back.
    Mrs. Blackburn. Mr. Pallone, you are recognized for 5 
minutes.
    Mr. Pallone. Thank you, Madam Chairman.
    The threats to our network supply chain pose a serious 
national security risk, and I don't think forcing through 
provisions as part of the National Defense Authorization Act is 
the best process. So I ask Chairman Walden and Chairman 
Blackburn and the rest of my colleagues on our committee to 
work together to pursue thoughtful legislation. Because these 
security risks pose an urgent threat, I hope we can work 
together to quickly pass a bipartisan proposal. My questions 
will therefore focus on how to craft the right policies for our 
country.
    Mr. Johnson, in your written testimony, you suggest using 
the interagency process to reach a better informed result, and 
some may believe that an interagency process is too slow, 
however, to deal with the immediacy of this threat. So let me 
start with Mr. Johnson. If Congress were to pass legislation 
setting out an interagency process to address supply chain 
risks, what is the fastest you think the executive branch could 
act to protect our supply chain? Is 180 days possible, for 
example?
    Mr. Johnson. Congressman, I think the executive branch is 
already taking steps in that direction, and also already has 
models for interagency collaboration, particularly through a 
partnership of the Department of Homeland Security and Commerce 
leading this botnet reduction initiative under the executive 
order, for instance. So I think the muscle memory is there, and 
with apologies to former overworked colleagues in the executive 
branch, I think some pretty big steps could be taken in 180 
days. And the only thing I would add is that it would need to 
continue on day 181 and beyond. So this process will never be 
finished. Kind of like the NIST framework, it will always be 
being improved.
    Mr. Pallone. Well, thank you. I said that I was concerned 
that the proposals being considered as part of the National 
Defense Authorization Act are static and would not evolve with 
the changing threats to our supply chain. A solution that only 
addresses the risks we face today I think could simply give 
foreign actors a blueprint for avoiding our protections for 
tomorrow.
    So again, Mr. Johnson, if we are actually going to create 
lasting protections for our supply chain, how should we craft 
laws so they can respond to new and emerging threats?
    Mr. Johnson. I think the answer to that is that continuous 
process, and it should include those two departments that I 
have mentioned. It should include the FCC, as well as possibly 
other regulatory agencies, as well as State, Justice, FBI, 
Defense, potentially other agencies. And crucially it should 
include the opportunity for private sector entities who know 
the market best and know the corners that the Government 
doesn't necessarily see. It should provide opportunities for 
them to come in in a candid, collaborative way, say hereis what 
we are seeing, hereis what I am picking up, and hereis what my 
concerns are, and hereis what the market bears. All of that is 
relevant to this.
    And as Dr. Clancy and Ms. Sacks noted, distinguishing 
between different components and parts of this market is 
crucial and complex, and you really can't do that without this 
holistic look of all the elements of Government and relevant 
players in the private sector.
    Mr. Pallone. All right. Thanks. And my last question, which 
I can get--any of you could answer, is I believe, as I said, 
the committee should work together to produce informed and 
well-reasoned bipartisan legislation to secure our supply 
chain. So with that in mind, could each of you tell me what you 
believe is the one thing we should include in a bill to protect 
our critical networks? And we have only got a minute and a 
half, but let me start with Dr. Clancy and we will go down.
    Dr. Clancy. I think this--just generally, this notion of 
not--any focus on specific companies will have perishable 
impact, so there needs to be a modular approach to identifying 
what particular components of the supply chain are of the most 
risk.
    Mr. Pallone. Ms. Sacks. Thank you.
    Ms. Sacks. We need to be careful not to replicate the China 
model in terms of picking winners and losers and using a state-
led approach that doesn't enable the industry and investment to 
do as it should. So we have an opportunity for technological 
leadership by enabling R&D, enabling more STEM education in a 
way that shows a U.S. versus a state capitalist model in 
technological development.
    Mr. Pallone. Thank you. Thirty seconds. Mr. Johnson, 30 
seconds left.
    Mr. Johnson. I agree that the private sector perspective is 
crucial to not be eclipsed by the Government perspective. And 
so I think clarity in the process in making clear what the--who 
is in the lead, who is putting in what inputs from the 
interagency so that private sector companies can navigate that 
is crucial, as well as legal mechanisms that allow them to feel 
protected in candid collaboration with the Government.
    Mr. Pallone. Thank you. I yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Johnson, you are recognized.
    Mr. Johnson of Ohio. Thank you, Madam Chair.
    I would like to--Mr. Pallone, most Johnsons can't even say 
their name within 30 seconds. He did a really good job of 
staying in that timeframe there. So thank you.
    Dr. Clancy, you know, some of the more concerning threats 
arise from the ongoing access that vendors have. What is the 
scope of this access? Are the threats limited to software or 
firmware updates, or could the ability of a technician to 
replace and repair parts also introduce risks?
    Dr. Clancy. So as you look at many of these vendors' 
networks, Huawei would be a good example, they have deployed 
telecommunications infrastructure globally, core switches and 
routers throughout many countries all over the globe. And as 
was mentioned, that market share here in the U.S. is fairly 
small. Part of that involves a service agreement where the 
operator has reach back in order to get service and support 
that they need as part of that purchase of equipment. So 
whether it is these devices doing software updates and getting 
new firmware loaded or its vendors who are working under a 
support contract are able to log in and access those systems, 
both of those represent operational security risks associated 
with use of that equipment in the environment.
    Mr. Johnson of Ohio. Well, using a risk management 
approach, how would a smaller rural provider that relies on 
these kinds of services manage these kinds of threats?
    Dr. Clancy. That is a great question. I think that the--I 
think the NDAA language suggests that in certain situations if 
the equipment is used, that any remote access be blocked. That 
also has challenges because if you are now blocking software 
updates, you may be blocking the ability to address 
vulnerabilities in the product that anyone could take advantage 
of, not just the vendor.
    So I think, again, if you are looking at what equipment 
should be deployed in a small rural internet service provider, 
I think that I would steer away from those that would have 
risks, such as the companies that have been identified. But 
that list should not be static, and there needs to be a way to 
continually provide industry with best practices about what 
products to use, which products potentially to avoid, and the 
risks associated with that.
    Mr. Johnson of Ohio. I guess it raises another question 
what the alternatives might be. I am a software engineer by 
trade. I spent 30-plus years developing and implementing 
software both within the Government and without. And, I mean, 
the way we used to do it, there used to be a third-party 
organization, a black hat organization if you will, that tested 
everything and had the security and access and the security 
privileges to be able to do that. The providers themselves, the 
vendors themselves weren't allowed to put their hands on the 
operational system. What alternatives do you see for the 
situation?
    Dr. Clancy. So I think there has been a fundamental shift 
in the market in the last probably decade towards managed 
services. With the growth of the cloud and everything as a 
service, people want telecom equipment as a service, and who 
better to provide that service than the vendor of that 
equipment.
    I think it might be very interesting for a managed service 
ecosystem to grow here in the United States that could be a 
third party to provision and manage those devices on behalf of 
some of the smaller operators. I don't know the extent to which 
that industry is mature right now because the vendors, for the 
most part, are providing that as a benefit of buying their 
products.
    Mr. Johnson of Ohio. Well, thank you.
    Mr. Johnson, DHS recently announced that they are kicking 
off two investigations into the security of our Nation's 
telecommunications supply chain, both from a general 
perspective and with regard to specific vulnerabilities. Can 
you think of anything else that DHS, FCC, or other Federal 
agencies can examine to better address the holistic set of 
threats that our telecommunications infrastructure faces?
    Mr. Johnson. Yes, sir. And I think that that initiative----
    Mr. Johnson of Ohio. You have got 30 seconds.
    Mr. Johnson. I will do it quickly again. I am from Georgia, 
but I will try to talk fast.
    That particular initiative that has just kicked off I think 
can be the beginning and the foundation of the broader 
interagency and public-private look at these issues and inquiry 
that we need to have. The FCC process that is going on will 
conclude a comment period on July 2, will add a lot of value to 
that, and there is some other processes going along, and I 
think the importance is to integrate all of that learning into 
a navigable set of processes.
    Mr. Johnson of Ohio. OK. Well, thank you. Madam Chair, my 
time has expired. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Loebsack, 5 minutes.
    Mr. Loebsack. Thank you, Madam Chair.
    This has been absolutely fascinating. Very complex stuff, 
very difficult for the average person. A lot of--and those of 
us up here on the dais who deal with these issues, very 
difficult to deal with on a day-to-day basis and to understand 
the issues. I am going to have a couple of questions in just a 
second having to do with that, but I do appreciate the 
different approaches that have been taken here.
    You know, the more technical issues, not to call you a 
Pollyanna or something, Mr. Johnson, but this whole idea of 
interagency cooperation sounds really great. I don't know how 
likely it is that we are going to be very successful in that 
front, but I think it is great. Keep pushing that as hard as 
you possibly can, that what good Government is all about often 
is the agencies trying to cooperate with one another, even if 
it doesn't happen very often.
    And, Ms. Sacks, I appreciate your comments about policy. I 
don't think any of us wants to be, you know, a mercantilistic 
nation either, the way China and a number of others are, but at 
the same time, for security reasons, we have to be very 
careful. We have to have industries in America that build these 
components, that are part of the supply chain, and it has got 
to be, I think, much more than it is at the moment.
    We are still going to have national security concerns, 
there is no doubt about that. But the whole idea of risk 
management makes a lot of sense but, you know, how we are going 
to be able to identify all these different companies and all 
the different components and all the rest to go through that, 
it is going to be a huge challenge, there's no doubt about it.
    To me, I just--for me, I just want to know what my 
constituents can do on a day-to-day basis to deal with all 
this. Because very few of them are watching this, if we are 
being covered on any of the C-SPAN channels. And even if they 
are, it is hard for them to decipher all of the information 
that we are hearing today.
    You know, average folks out there, they have got something 
in their pocket that they have to worry about when it comes to 
cybersecurity. And all the information that they have, they 
have stored and that is available to the bad guys out there. I 
do----
    Before I ask you this, sir, what they ought to do, I do 
want to say this one more thing, and that is, I was on the 
Armed Services Committee for 8 years, so--and dealt a lot with 
sort of how we stay ahead of the bad guys in other countries. 
And this kind of reminds me of dealing with folks who were 
working on IEDs on a regular basis, trying to stay ahead of the 
game. That is what they are trying to do is stay ahead of the 
bad guys so that they didn't hurt our soldiers, our troops in 
the field. This is kind of the same sort of thing, how do we 
stay ahead of the game? You know, because there are a lot of 
bad guys out there trying to do terrible things to our country 
when it comes to cybersecurity.
    But to bring it down to the level of my constituents, what 
can these folks do right now who have a concern about this 
issue, someone who has got an iPhone in their pocket or 
whatever? What would you recommend that they do today to try to 
deal with this situation? All of you, please.
    Dr. Clancy. Sir, my perspective is you have to look at the 
risks that they face. For the most part, the average citizen is 
facing a criminal, an aspect of organized crime looking to 
steal their credit card number's identity. They are probably 
not the target of advanced persistent threats developed by 
nation-state actors or complex supply chain operations against 
their personal electronic devices.
    Mr. Loebsack. Although they may be collateral damage from 
that.
    Dr. Clancy. They could be, but you have to then look at how 
those actors would take advantage of that information. So best 
advice for the average citizen is really to focus on cyber 
hygiene. The biggest risk to their security is clicking that 
link in an email that takes them to a Web site where they type 
in their credit card number. So basic education and cyber 
hygiene is, I think, the most important thing that the average 
citizen can do in this space.
    Mr. Loebsack. Ms. Sacks, I know you deal with the macro 
policy issues, but----
    Ms. Sacks. I agree with Dr. Clancy's remarks. I defer to 
the security experts on this.
    Mr. Loebsack. Thank you.
    And, Mr. Johnson.
    Mr. Johnson. And I think simple awareness is a very big 
first step, whether it is online activity or purchasing 
devices. Asking the question of whether I am doing this in a 
secure way actually will usually lead you to the right secure 
step.
    Mr. Loebsack. Where can they find information to help 
educate them about this? Where can they go?
    Mr. Johnson. There are a number of resources through the 
Government, through NIST publications, NTIA, FTC, FCC, DHS. And 
I think we are at a point now, and this is where the imperative 
of a coordinated, integrated Government operation is so 
important, because consumers need to know where do I look. They 
shouldn't have to look in a variety of different places.
    Mr. Loebsack. I think it is our job too as Members of 
Congress to get that information out to our constituents as 
well. So thanks to all of you. My time is up. I appreciate it.
    And I yield back. Thank you, Madam Chair.
    Mrs. Blackburn. Mr. Kinzinger, you are recognized.
    Mr. Kinzinger. Thank you, Madam Chair, for this important 
hearing, and thank you all for being here. I think it is an 
important nexus between national security and E&C that, 
unfortunately, I don't think a lot of people see. So I 
appreciate it.
    Dr. Clancy, I appreciate your service at the NSA. I fly for 
the Air National Guard. I do mostly ISR missions, so you can 
make that link there. I have become concerned recently about 
these reports of Stingrays and cell-site simulators popping up 
around Washington, DC, which has made it into the open source. 
Are you aware of reports that DHS has detected the presence of 
these devices in the greater DC area?
    Dr. Clancy. I certainly have seen the volley of letters 
back and forth between Congress and the FCC on the topic. There 
have been a number of academic studies as well that have 
identified the likely presence of such devices in the area as 
well.
    Mr. Kinzinger. So DHS has confirmed that they have detected 
their presence, but they said they can't physically locate the 
Stingrays. We have consulted with industry to figure out, you 
know, what industry can do to help.
    In the initial meeting, they told us they had met with the 
National Protection and Programs Directorate on the matter and 
they confirmed their awareness of Stingrays, but NPPD doesn't 
seem to know everything they need to know to actually do 
something about them. While protecting, of course, sources and 
methods, do you think they are obligated to share some of this 
intelligence with industry under the Cybersecurity Act of 2015?
    Dr. Clancy. I think that there are a variety of ways to 
detect Stingrays. I think--and I am using Stingrays as a 
generic term to reflect NG capture technology in general. I 
think that 5G standards have introduced new portions within the 
standards that will allow carriers to be able to detect the 
presence of rogue-based stations. And I think we are all 
excited about that capability as a way for sort of a network-
centric approach to addressing that problem.
    I think that there are a lot of sensitivities around the 
technology, given its origins, and that has made it difficult 
for effective information sharing between people that might 
seek to police this activity and those that are technical 
experts on the underlying technology, although I am not in a 
position to, I guess, have an opinion about whether the 
Cybersecurity Information Sharing Act is the appropriate form 
for that information exchange.
    Mr. Kinzinger. And my concern is, you know, not from a 
certain use perspective, but from, you know, this idea that 
there may be intelligence agencies in the United States or in 
DC specifically, which we have read about in open source, that 
are actually doing this. And that is a big concern, because I 
would think if in fact there are foreign intelligence agencies 
using this technology, that should be a high priority for us in 
terms of determining that.
    Like you, I understand, you know, the sensitivity of 
talking about it, because, you know, it is what it is. We have 
reached out for more information, so we will follow through on 
that.
    To Mr. Johnson, the House Armed Services Committee marked 
up the fiscal year 2019 National Defense Authorization Act. It 
included a blanket ban on Huawei and ZTE equipment by 
Government agencies. I was very surprised and, frankly, 
concerned by the President's comments recently, in fact, 
showing somehow a loosening up of that concern with ZTE. And I 
hope they were comments that were misinterpreted or at least 
there is some other thought given to that, because national 
security is my top priority in Congress. In a perfect world, I 
would like to see a strong security posture on this front with 
zero industry impact, but I feel like that is fairly 
unrealistic.
    Is there a way to achieve a strong national security 
posture, including removal of corrupted equipment, with a 
relatively low impact on industry? And could any impact be 
distributed over the long term to minimize industry compliance 
costs?
    Mr. Johnson. I do--I think so. And I think the way to do 
this is sort of there are three issues that are key to keep in 
mind. One is these issues are very, very complex and they touch 
a number of different areas. And so it is very important to get 
this right and that we use precise instruments instead of blunt 
instruments where possible.
    Two is that three companies have been identified in statute 
and in other Government actions--one Russian company and two 
Chinese companies--and they have been identified for a number 
of reasons that we could just--the number of public reasons and 
a number of reasons that we could discuss in a SCIF. And the 
FCC proposal on these issues is going to be an important 
beginning in fleshing this out.
    The third thing is that we need a process that I would say 
is much like how after World War II the Goldwater-Nichols Act 
brought together all the different services and created a joint 
interoperable military, and is something I know you can 
appreciate. And that type of approach, it is very difficult to 
do. In the case of the military, it took a long time. We need 
that type of effort for not only the Federal interagency, not 
only the Federal interagency and the independent regulatory 
agencies, but also the Government and the private sector. It is 
going to take a long time, but we are a lot further along than 
we were I would say 10 years ago when we first started looking 
at these issues and literally none of the players knew what the 
other ones were doing or how to do it.
    So we need to get to the point where we can act quickly and 
deliberately and know that we are taking sure-footed steps that 
consider all the holistic elements.
    Mr. Kinzinger. Thank you all for being here.
    And I thank the Chair for her latitude. I yield back.
    Mrs. Blackburn. Absolutely.
    Ms. Eshoo, you are recognized for 5 minutes.
    Ms. Eshoo. Thank you, Madam Chairwoman, for having this 
important hearing. And thank you to the witnesses for your 
testimony.
    This is an issue that I go way back on. I was a member of 
the House Intelligence Committee for almost a decade, and the 
issue of Huawei and the challenges that it represented I took 
very, very seriously. And as a matter of fact, when I was 
leaving the committee, and Mike Rogers, a former colleague and 
then chairman of HPSCI, I made him swear on a stack of Bibles 
that he would pick up the baton and keep going on this. Why? 
Because when our country was attacked on September 11, there 
was one thing that we had that worked an aided us in our 
national security, and that was our telecommunications sector. 
That is where the gold was.
    And, you know, for us to be examining this now is very 
important, but we are not starting from scratch. It is a 
completely different picture now in terms of sophistication in 
our systems, what is manufactured, what companies know, what 
other companies have, what they do, how effective they are, who 
they buy from. And so I think that the Congress has the tools 
to make a very strong decision. Mr. Kinzinger said that he 
takes national security as his top issue. It is the top 
responsibility for every single Member of Congress. We take our 
oath of office to protect and defend, enemies external or 
internal. So we cannot afford, the United States of America 
cannot afford to play footsie with these companies. They 
represent a direct challenge to our national security.
    So what I want to ask you is, have any of you done an 
analysis of the costs of whatever it takes in terms of the--you 
know, a trusted supply chain so that we can make the shift and 
we don't have to bother or be bothered with ZTE or Huawei or 
anyone else that presents themselves down the road? Whomever 
wants to answer. Has there been any kind of cost analysis of 
this?
    Ms. Sacks. I say this having worked in the national 
security and the Department of Defense community, there has not 
been public information released about the specific problems 
associated with Huawei and ZTE. I am not saying they doesn't 
exist, but in order to conduct exactly that kind of assessment, 
to do the kind of----
    Ms. Eshoo. But we know--let me interrupt you just a second.
    Ms. Sacks [continuing]. Needs to have public information, 
it cannot be classified----
    Ms. Eshoo. Just a second. I know from classified briefings 
what the challenges are. I am not asking you to tell me about 
that. I already know that. The challenge is, we want to have a 
system where we are not reliant on them for anything, for 
anything. And I think in different ways, you all have maybe 
touched on it or gone around it. So would you like to say 
something on this?
    Mr. Johnson. Yes, ma'am. I think we need to urgently start 
that process. And all the pieces are in place now, we know a 
lot more about what needs to be done.
    Ms. Eshoo. So there has not been this examination, as far 
as you know?
    Mr. Johnson. I think we are behind in doing that analysis, 
but these processes that are underway right now are--will flesh 
this information out. But, no, I think we don't know enough 
about--we need a record on this. And that is what is so 
valuable about this FCC process. It is focusing on one element 
of the problem, but it is the very first public record that 
will exist on this issue.
    Ms. Eshoo. I thank you.
    Madam Chairwoman, I think that our committee needs to do a 
letter to the administration. I am not saying this to be 
political. This is a national security issue, and Republicans 
and Democrats have taken, both at this committee, at the House 
Intelligence Committee, for years have weighed in relative to 
these companies and the national security threat. I don't know 
what is happening. I think that the Secretary of Commerce 
certainly did the right thing. We should do this on a 
bipartisan basis. I don't know what is taking the President in 
whatever direction. I am not going to make any political hits 
on it. Overall, it is wrong and it is dangerous for us. And I 
think that the Congress, coequal branch of Government, should 
weigh in with the administration formally and say, ``This is 
not the way to go.''
    So I would just request that and have you consider it. I 
think there would be support from this side of the aisle, and I 
think there would be from yours, as well.
    So I want to thank the witnesses and for your patience. I 
have gone over my time. Thank you for your testimony on this 
most important topic.
    Mrs. Blackburn. The gentlelady yields back. And I look 
forward to discussing with her how we can continue to work in a 
bipartisan manner on this.
    Mr. Bilirakis, you are recognized for 5 minutes.
    Mr. Bilirakis. Thank you. Thank you, Madam Chair. I 
appreciate it very much.
    Dr. Clancy, one of your recommendations to strengthen the 
supply chain is a collaboration between industry and Government 
to identify at-risk products. That information can then be 
shared with developers and suppliers. The Department of Defense 
uses a software process standard called common criteria in 
which software is penetration tested for vulnerabilities and 
then assigned a certification grade. The FAA has a similar 
process for its flight control systems.
    I recently met with a software company with a cybersecurity 
research facility in my district. The company suggested a 
similar process at risk management--of risk management for 
medical devices and other sensitive IoT devices. The results 
could be used to identify and mitigate security threats. 
Interestingly, because it is a process and not a regulatory 
standard, it can evolve with new technologies and threats.
    So, Dr. Clancy, is this something that aligns with your 
thoughts on Government collaboration? And can you expand on any 
other ideas you have for Government participation in this space 
that does not involve quickly outdated standards?
    Dr. Clancy. Certainly. I think the common criteria is a 
great example of a framework that looks at cybersecurity risks, 
specifically with software as you point out. There are--I think 
you could more broadly look at the NIST cybersecurity framework 
as capturing kind of a superset of those objectives. I don't 
know that any of them are necessarily well suited or have been 
applied in the supply chain space yet. I think that is 
something that is a study that would need to be undertaken.
    I think in terms of managing and governing that process, I 
think the interagency approach that Mr. Johnson proposed is a 
great starting point for that. The knowledge of the threat is 
distributed across many different Government agencies. And I 
think they would need to come together in order to bring 
together that complete picture in order to collaborate with 
industry effectively.
    Mr. Bilirakis. Thank you.
    Mr. Johnson and Dr. Clancy, this question is for both of 
you. There may be times where specific telecom suppliers raise 
truly serious concerns which warrant action, but we cannot 
avoid the reality of today's global supply chain. Where do we 
stand if we cannot adequately respond to threats that arise out 
of such a global supply chain? We will go with Mr. Johnson 
first, please.
    Mr. Johnson. I understand your question is, given the 
interconnected complex nature of the global supply chain, how 
do we identify particular threats?
    Mr. Bilirakis. Yes.
    Mr. Johnson. I think just borrowing on some of my fellow 
witnesses' testimony, taking a risk management approach is 
crucial, as is clear guidance to the market about where the 
risks are, and that could include individual companies, it 
could include individual products of individual companies, or 
it include other things that we haven't identified yet. And I 
think the most important thing is to look at this through--not 
through a stovepipe of a certain agency or a certain industry 
sector, but holistically through the entire market in all its 
complexity, and clearly provide private sector advice or 
guidance about where the risks are. And this process needs to 
include their take on it, where do they see the risk and where 
do they see--what do they see as how to do supply chain risk 
management and trust its suppliers, and then create the 
positive feedback loop that continues to inform the market 
about what is good and what is trusted and what is not.
    Mr. Bilirakis. Dr. Clancy, please.
    Dr. Clancy. As I pointed out in my testimony, I think it is 
going to be impossible to eliminate all risk from the supply 
chain. It is too global and there is too many different ways 
that every product touches that global supply chain. So, again, 
risk management is critical. You have to pick the areas where 
there is the most risk in terms of bad actor behavior and the 
areas where there is the most criticality in terms of our 
critical infrastructure and start there and then work your way 
down.
    Mr. Bilirakis. Thank you. Very good.
    I yield back, Madam Chair. I appreciate it.
    Mrs. Blackburn. Mrs. Dingell, you are recognized.
    Mrs. Dingell. Thank you, Madam Chairman.
    Much of the confusion surrounding this issue relates to the 
simple truths that we don't know the full scope of the problem. 
And although it is helpful to hear different ideas for 
mitigating risk across networks, I believe it is difficult to 
create effective policy without knowing what we are up against. 
It is difficult to change, or in this case, protect what you 
can't measure.
    These questions are all going to be for Mr. Johnson.
    Mr. Johnson, you say in your testimony that you advise 
companies trying to navigate these threats. Can you tell us, 
generally, whether companies in the private sector are 
beginning to take some sort of inventory of the risks that they 
are facing?
    Mr. Johnson. I do think--and I have worked with a number of 
the companies in this sector speaking broadly throughout in the 
communication sector device, cloud, and internet 
infrastructure. For about a dozen years in, I don't know if I 
can't hold a job, but I think this is now my fifth different 
job that I have worked with a number of these companies in both 
in Government and now in private practice. And I can say two 
things: Number one, it is core to their business to--to their 
business imperatives as a bottom line institution to advance 
supply chain security.
    And number two, we as a collective Government and industry 
partnership have advanced pretty significantly in those dozen 
years in terms of situational awareness. We are not where we 
need to be, and I don't think any individual company or any 
individual agency is, but we have come a long way and the 
trajectory is where it needs--is headed in the right direction. 
And I think now we just need to step on the gas with some 
urgency to fill out the data that we don't have.
    Mrs. Dingell. So are there models for conducting this sort 
of dynamic threat assessment that stakeholders should be 
looking to?
    Mr. Johnson. I mentioned this briefly earlier. There is a 
model in the last year that has--of a process that has just 
been completed that I really think is a model of cybersecurity 
policymaking. It was conducted under the executive order to 
reduce botnets and other distributed automated threats. It was 
led by the Commerce Department and the Department of Homeland 
Security, but included input from a whole host of other 
agencies and the FTC and the FCC and most crucially was driven 
by private sector input.
    So the companies that are out on the front lines were 
helping drive this process that was convened by the Government. 
And I think that model, it was very robust, it was very busy, 
there was lots of activity, there were lots of threads that 
were being followed, but it was navigable and it was clear. And 
I think that type of model could be replicated on the supply 
chain side, along with legal mechanisms to ensure the 
confidentiality of sensitive data that is exchanged.
    Mrs. Dingell. So on the Government side, how could Federal 
agencies best situate themselves to be effective partners for 
the private sector? Do you think that the FCC, the Department 
of Homeland Security, Commerce, each have a role to play?
    Mr. Johnson. I do. I think they and as well as a number of 
others do. In the case of these issues, I think the Department 
of Homeland Security is the sector-specific agency for the 
communications sector and the IT sector so they can--they 
should probably--and they also administer the statutory 
protections for protecting confidentiality. I think they can 
sort of be the lead cat herder in the interagency and in 
convening this process, but certainly the Department of 
Commerce, both through NIST and NTIA, and the International 
Trade Administration and the Bureau of Industry and Security, 
have very important perspectives to add, as does the 
intelligence community, Department of Defense, and other 
regulatory agencies.
    Mrs. Dingell. So, finally, what should the Federal 
Government be doing to incentivize research here at home so 
that many of these emerging technologies are built here and 
developed here?
    Mr. Johnson. I think really the--that is a--that is maybe 
the most difficult question of all, because we don't--here we 
don't do State-directed, industrial policy like China does, and 
I don't think we want to do that. But we also want to send a 
very clear message to the market that the future is secure. The 
future of the market needs to be trusted suppliers and secure 
products and services.
    And I think that maybe the biggest benefit of these 
processes that are taking place right now is it sends a pretty 
clear message that security is--needs to be the future of the 
market. And if you build it secure, you are going to benefit in 
the market.
    Mrs. Dingell. Thank you, Madam Chair.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Lance, you are recognized.
    Mr. Lance. Thank you, Chairman. To the entire panel, 
ensuring a secure supply chain is a priority for all of us, but 
the real question, from my perspective, is how do we as 
policymakers, and we certainly don't have your expertise, 
ensure that we get it right and avoid unintended consequences?
    For instance, we saw the Department of Commerce crack down 
on ZTE and rightfully so for violating sanctions in Iran and 
North Korea, and it is essentially an arm of Chinese 
intelligence. However, Commerce's penalties again ZTE also 
meant companies are not sending security updates to those 
phones. While we are trying to protect ourselves, we are also 
potentially leaving ourselves vulnerable.
    In your judgment, the expertise of the panel, how do we 
strike a balance and protect ourselves from bad actors like ZTE 
without opening up other security gaps? I will start with you, 
Dr. Clancy.
    Dr. Clancy. So I think your example around software updates 
is a great one. If we look at--again, if we look at the problem 
holistically and you seek to manage cyber risk for an entire 
industry, that includes both the selection of equipment and the 
configuration, provisioning, and management of that equipment. 
So, for example, you can trade off whether or not the relative 
risk associated with a low-cost component that is--perhaps has 
its software update patch path blocked because of some of these 
requirements, and compare that to potentially a more expensive 
piece of equipment that doesn't have that.
    So, again, if you are looking at the overall risk 
management, I think you would be able to make those trades and 
be able to make the best decision for overall security of, in 
this case, telecommunications critical infrastructure sector.
    Mr. Lance. Thank you.
    Ms. Sacks.
    Ms. Sacks. I agree with Dr. Clancy. I think this needs to 
be a risk-based approach that is granular, that looks at 
specific equipment and components going into systems not just 
for companies of certain countries, but for all equipment 
providers.
    Mr. Lance. Thank you.
    Mr. Johnson.
    Mr. Johnson. Yes, sir. I think we need to find maybe not 
the balance, but the combination between deliberate action and 
expeditious action. And I think there is a way to do that even 
in this scenario. It needs to be clear. It needs to be--the 
steps and timeframes or their phaseout periods, that all needs 
to be determined and it needs to be clear to the consumer and 
the companies who are out on the front lines about what is 
going to happen and when.
    Mr. Lance. Thank you.
    Ms. Sacks, in your testimony, you recommended that the 
United States look for leverage to change Beijing's behavior 
and its ICT policies, and that it is not in our best interest 
to act unilaterally.
    Have other countries taken action against ZTE and Huawei? 
And should the U.S. be looking to leverage the ZTE situation to 
pressure China on its ICT policies instead of as a trade 
bargaining chip?
    Ms. Sacks. Two points on that: One model that is worth 
considering is the U.K., which has incorporated Huawei into 
their systems, has set up a security testing center which they 
use to test Huawei equipment that goes into the network. It is 
independently audited and the results are reported directly to 
the National Security Adviser.
    So that is one model that should be considered, although we 
need to take a number of things into consideration to 
strengthen it. That center is staffed entirely by Huawei 
employees. I think we would need a much more strengthened 
version in the United States. And particularly if we are 
thinking about 5G and the complexities around massive software 
involved with 5G, would that kind of model be adequate for the 
new security challenges posed by that.
    So that is just one example of another country that we 
might want to take into consideration.
    Mr. Lance. In your professional judgment, is the U.K. the 
best at this in the world?
    Ms. Sacks. I don't know if they are the best, but they are 
the one--I think that their model is one which is worth 
studying.
    Mr. Lance. Thank you. This has been a very interesting 
panel, and I thank all of you for participating.
    And, Chairman, I yield back half a minute.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized.
    Ms. Matsui. Thank you, Madam Chairman, and thank the 
witnesses for being here today.
    Virtual private networks assist companies and businesses in 
preventing foreign governments from monitoring traffic between 
providers and their devices. There seems to be ongoing 
uncertainty surrounding whether and how rules blocking the use 
of VPNs in China not approved by Chinese government will be 
implemented.
    Ms. Sacks, as you note, this review requirement has a 
practical effect of allowing the Chinese government to approve 
the channels companies use for international connectivity. What 
security threats arise in China monitoring, reviewing, and 
approving VPNs, especially communications using VPNs where 
Huawei and ZTE have installed network equipment?
    Ms. Sacks. One of the most important areas that we should 
watch are restrictions around corporate VPNs in China, not just 
for consumers, but also for companies in terms of sending 
information across borders to conduct HR baseline financial 
operations needed to conduct business there. I think that there 
are a number of channels that the Chinese government is using 
to increase their ability to monitor and control networks, the 
data, the information that flows across that. The VPNs is one.
    There are multiple different kinds of security reviews that 
are all in process. The scope of them is not clear, and there 
is competing jurisdictions, even within these different kinds 
of reviews. So you have the multilevel protection scheme, which 
has been in place for several years, but now you have a new 
review of network products and services connected with critical 
information infrastructure operators in China. We don't know 
what is going to follow the scope of that.
    Ms. Matsui. OK. Well, thank you.
    Back doors into hardware and network components are 
designed to avoid detection, and vulnerabilities introduced at 
the beginning of the development process in the supply chain 
are particularly hard to detect. I echo the concerns of my 
colleagues over the national security threats posed by 
equipment providers to the integrity of the communication 
supply chain. I understand inherent difficulty approving where 
there isn't a back door into our networks.
    I want to ask this of each of you. Do you believe 
sufficient work is going towards a process to ensure when there 
is or is not a back door in switches, routers, or other 
networking equipment? Dr. Clancy?
    Dr. Clancy. As you point out that such back doors or 
intentional vulnerabilities in software are extremely difficult 
to detect, particularly if they are specifically seeking to be 
hidden. I think that it would be very challenging to do a 
thorough assessment, for example, without access to source code 
for the presence of such vulnerabilities in equipment purchased 
from foreign vendors. I think that that, though, is--the bigger 
threat, at least immediately though, is the more front door 
access, which is the managed vendor access where they are 
explicitly given access to the license for the purpose of 
management.
    So I think we need to tackle the front door first. The back 
door is I think something that will only be effectively tackled 
through a risk-based approach, because guaranteeing that there 
are no back doors is virtually impossible.
    Ms. Matsui. OK. Ms. Sacks, do you agree?
    Ms. Sacks. I don't have anything to add to that.
    Ms. Matsui. OK. Mr. Johnson.
    Mr. Johnson. Yes, ma'am. I agree with what Dr. Clancy said 
about the difficulty of finding the purposely in place back 
door and also the threat of the front door that we see right 
now through vendor management.
    And Ms. Sacks had a really great example of an innovative 
approach to this that the U.K. is taking with regard to Huawei. 
The only thing I would add to that is that at the same time 
that the U.K. decided to that, we in the United States were--
those proposals were being made in the United States as well. 
Let us do this, we will do an independent testing, et cetera, 
and the United States decided not to do that. And I think that 
is probably--while I think it is correct that the U.K. model is 
a very valuable reference point for testing, I am very weary of 
the capabilities of testing to be able to find the real 
problems when you have such a sophisticated actor. So I might--
I just think testing can be an important part of it, but it is 
never going to be a wholly sufficient answer. And I think we 
need testing along with a holistic approach to trusted 
suppliers.
    Ms. Matsui. All right, OK. It looks like I don't have 
enough time. So anyway, I yield back the balance of my time. 
Thank you.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Guthrie.
    Mr. Guthrie. Thank you, Madam Chairman.
    I appreciate the opportunity to be here and for our 
witnesses to be here today for a timely issue.
    My first question is for Ms. Sacks. It appears the response 
to network threats so far have been tactical with regard to 
specific threats and strategic with regard to competition in 
the supply chain. So what can we do to ensure our response is 
proactive and coordinated across the Federal Government? And do 
we need to formalize this approach? And if so, what sort of 
framework is needed?
    Ms. Sacks. I think that there has been a conflation of a 
lot of different kinds of challenges and problems connected to 
Chinese security and industrial policy threats, and we need to 
be much clearer. Are we talking about export controls, national 
security risks, IP theft, FCPA, and that will help enhance 
coordination, better coordination among these different actors 
given the different types of issues at hand. And once we are 
able to do that, I think that we can work more effectively with 
our allies and partners in other parts of the world to exert 
the kind of leverage needed to change behavior.
    Mr. Guthrie. Do you have any thoughts of what agencies, 
timelines, and what scope, and how we balance agility with 
thoroughness?
    Ms. Sacks. Here I think I would defer to Mr. Johnson.
    Mr. Guthrie. That is fine. I was going to ask him next. I 
was going to ask him next, so there we go.
    Mr. Johnson. I spend a lot of time pushing that boulder 
over the mountain in the interagency. As I said a little bit 
earlier----
    Mr. Guthrie. Didn't roll back down, did it?
    Mr. Johnson. It rolls back down, and you push it a little 
bit further and it rolls back down again.
    But there has been a lot of progress made in the past 
decade or so in terms of getting the team to be more of a well-
oiled machine. It is not that yet. But I think we have ways 
to--we don't need to find ways, we have ways to have a 
coherent, holistic process that includes input from all the 
relevant stakeholders in Government and also in the private 
sector. That is what we need to do as--it needs to be--we need 
to be in a big hurry about it, and it needs to be urgent, and 
it also needs to be deliberative and continuous. We are not 
going to finish this project. It is going to go on for as long 
as we have these capabilities.
    Mr. Guthrie. OK. So Mr. Johnson talked about the agencies. 
So, Dr. Clancy, or any of you, actually--and you did mention it 
has got to have input from the private sector. So what road 
should the private sector--I will ask Dr. Clancy first, then we 
can move on, what road should the private sector play in 
collaboration with the Federal Government to address the 
telecom supply chain risk assessment from the manufacturing 
perspective?
    Dr. Clancy. Well, I think I will highlight a point I think 
that is been made earlier in this hearing, is that the 
Cybersecurity Information Sharing Act, landmark legislation, 
really enables tactical sharing of operational cyber threat 
data between the Federal Government and industry. I think over 
the last 3 years as that has been operationalized, we have seen 
a lot of industries come together and effectively use those 
instruments.
    Mr. Guthrie. Well, passing that was actually kind of 
controversial. I mean, some people really opposed that, and 
Members. I mean, so how has that been effective? I didn't think 
about that, you just said it, but----
    Dr. Clancy. So I think it has--we have seen many of the 
ISACs, the industry specific information sharing entities adopt 
various technology standards, like STIX and TAXII, protocols 
that are specifically designed to share real-time threat 
information. I think there is still lots of hurdles to go. I 
think there are lots of parts of industry that are still 
nervous about sharing information that might be negatively 
viewed by their regulators, and so I think there is still some 
caution from an industry perspective. I think they are enjoying 
the ability to consume information from the Federal Government, 
though. So we haven't, I think, seen full bidirectional sharing 
between industry and Government, but we are getting a lot 
closer to that, in my personal opinion.
    But as you project that forward and you look at supply 
chains, supply chains are a very different type of threat. It 
is not an operational tactical threat. It is a much more 
strategic threat where the long game is being played by 
adversaries in this space. And so it is less about tactical 
information sharing but more about understanding the bigger 
picture and being able to share risk assessments associated 
with that with industry and among members of industry and with 
Government. I think we haven't gotten that far yet. And I think 
that would be, again, whether it is the interagency framework 
that Mr. Johnson has proposed or other mechanisms, I think that 
is really the next frontier.
    Mr. Guthrie. I see you nodding, Mr. Johnson. Any comment 
you want to add to that?
    Mr. Johnson. I think that is right. The next step--we 
talked about this right in the beginning, the next step beyond 
the tactical real-time information sharing of the Cyber 
Information Sharing Act is a more deliberative, in many cases, 
human interface about longer term strategic threats, and 
companies will need to have certainty that going into talk to 
the Government about what they are worried about doesn't come 
back and hit them. You might call it a reverse Miranda 
protection where nothing I say here will be used against me. 
And we really need to build this team and pull it together, and 
it has to be a trusted environment. There are some--the PCII 
protections are statutory protections that provide that. And I 
would be delighted to talk with you more about that when I am 
not over time.
    Mr. Guthrie. My time has expired. I appreciate it. Thank 
you.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Butterfield, you are recognized.
    Mr. Butterfield. Thank you very much, Madam Chair.
    Good morning to our witnesses today, and thank you for your 
testimony.
    Madam Chair, in thinking about the hearing today and trying 
to get a few notes ready to talk to these witnesses, it became 
pretty clear to me how difficult securing our supply chain will 
be. This seems not to just be a national security issue, but a 
technological issue, an economic development issue, a consumer 
issue, and even a trade issue. And so I appreciate that our 
colleagues on the Armed Services Committee understand how to 
approach the national security portion, but we must also strive 
to better grasp the broader ramifications.
    And so, Mr. Johnson, in your written testimony, you note 
that securing our chain raises complex national security, 
strategic, economic, business, and technological concerns. So 
my question, sir, to you is, to ensure that we have developed 
the right policy to manage the risk to our chain, supply chain, 
do you think that we, Congress, should take steps to ensure we 
are adequately thinking through each of these complexities?
    Mr. Johnson. Absolutely, yes.
    Mr. Butterfield. In their interrelationships.
    Mr. Johnson. Absolutely, yes. This is a very big deal and 
we need to get it right.
    Mr. Butterfield. What are some of the economic, business, 
and technological concerns that we should be focused on in 
their intersectionality?
    Mr. Johnson. Well, just to take the example of 5G 
deployment, the issues that pertain to 5G deployment moving to 
an almost entirely connected world, really have--in some ways 
they have all the elements of what our country went through in 
the fifties and sixties with regard to the space race. The 
implications of what types of companies and what types of 
countries are ahead in deploying 5G have geostrategic 
implications, they have economic competitiveness implications, 
they have espionage and sabotage and warfare implications. And 
so we certainly want the United States and other rule of law 
based market democracies and those companies to be in the lead 
in order to maintain the interests that we--and values that we 
hold dear.
    Mr. Butterfield. Now, there are some conversations that we 
have heard about outright banning equipment from China, and I 
am paraphrasing some of that. I don't suspect that is your 
view. But what impact would outright banning equipment from 
China have on low-income consumers?
    Mr. Johnson. I think this has been expressed earlier by my 
fellow witnesses, but I think a country-of-origin ban of any 
kind is too blunt of an instrument, and it is not necessarily 
feasible in the world we live in now, particularly with regard 
to China. There are a lot of trusted suppliers that have 
elements of China in their supply chains. And so we need to 
take more of a scalpel and identify bad actors.
    With regard to the bad actors that have been identified 
from China, and certainly there are some China-specific 
concerns that we need to raise, but with regard to the two 
Chinese companies that have been identified, the record that is 
being built in the FCC through the proposal to prevent USF 
funds from going to companies like that is going to flesh out 
what the effect in the market is and, very importantly, what 
the effect in the lower income and rural markets are where 
companies like Huawei and ZTE have most of their U.S. presence.
    Mr. Butterfield. Let me ask you this, does the draft 
defense authorization legislation that has been put forward 
accurately take each of your concerns into account?
    Mr. Johnson. I think that--any proposal, particularly one 
that is embedded in statute, needs to have a very significant 
vetting, tire kicking, and make sure that, you know, through 
hearings like this, that all of the important elements and 
considerations are embedded in whatever statute becomes law.
    Mr. Butterfield. Dr. Clancy, you have 30 seconds, my last 
30 seconds. Any comments on any of this?
    Dr. Clancy. So specifically with respect to your last 
question, I think the--while certainly the actors that have 
been identified so far represent, I think, substantiated risks 
to national security, they may not be the only ones, so 
focusing only on those two is I think one challenge. I think 
the other aspect that needs to be addressed is, again, the 
criticality. There is a difference between a phone and a core 
network router, and that is not adequately reflected in the 
current draft legislation, in my opinion.
    Mr. Butterfield. Thank you.
    Sorry, Ms. Sacks, but we ran out of time.
    I yield back, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Long, you are recognized.
    Mr. Long. Thank you, Chairman.
    Dr. Clancy, due to the interconnected nature of 
telecommunications networks, operators don't always have 
visibility into other parts of the network to know whether 
there may be vulnerabilities. In some cases, information may be 
carried over the network that has ridden over foreign networks. 
Can you speak to the global nature of the internet and how we 
should address vulnerabilities given these threats?
    Dr. Clancy. So there are a whole range of potential global 
threats to the internet itself. The internet, from a 
government's perspective, is really a series of bilateral 
contracts between internet service providers that stitch 
together to form the fabric of what we know the internet to be. 
And any of the components of that core infrastructure have the 
ability to influence things like control playing aspects of the 
internet, routing tables being the most notable example, or any 
major internet service provider can cause major damage to the 
internet by virtue of how the internet is constructed. So I 
think that there are a whole range of threats.
    I think the larger the market share of any one particular 
vendor, particularly vendors that we deem as a national 
security risk, increases the global exposure to that risk, to 
that threat.
    Mr. Long. OK, thank you.
    And, Ms. Sacks, the Department of Commerce denial order 
issued against ZTE is commonly cited as one of the reasons ZTE 
sought to cease operations in the United States. This order, a 
law enforcement action resulting from the violation of 
sanctions terms, was very disruptive. If this disruption serves 
as a model for future bans on specific network or device 
equipment providers, what is the impact on our ability to 
remain globally competitive?
    Ms. Sacks. ZTE clearly violated export controls, and this 
is an export control issue rather than a trade issue, although 
there are also separate national security implications. It has 
not been usual for bans on sanctions to be lifted, but the 
timing and the process involved with ZTE was highly unusual. We 
need to see what comes out of this. U.S. companies are 
definitely going to have impact from that ban. We need to see 
what happens in terms of the President's moves as he works to 
negotiate with the Chinese, but the conflation of an export 
control issue with a trade issue is worrisome in my mind.
    Mr. Long. Are these sorts of bans effective or are there 
other proactive measures that we can take to protect our 
networks and compete globally?
    Ms. Sacks. We have seen with Beijing that access to global 
markets is a point of leverage that has brought them to the 
negotiating table in 2015, so ahead of Xi Jingping's visit 
where they came with up the cyber agreement. So we see that 
access to global markets is a point of leverage. However, we 
need to also consider the ramifications on the follow-on 
effects in terms of retaliation against U.S. companies. That is 
why it is important to work in a multilateral fashion on this.
    Mr. Long. OK, thank you.
    And, Madam Chairman, I would like to submit an article for 
the record, ``US Army base removes Chinese made surveillance 
cameras.'' This is Fort Leonard Wood in my home State of 
Missouri.
    And with that, I yield.
    Mrs. Blackburn. Without objection. The gentleman yields 
back.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Mr. Costello, you are recognized.
    Mr. Costello. Thank you, Madam Chair.
    Mr. Johnson, how would you advise a telecommunications 
provider when it is making plans to expand its network? Of 
course, providers want to be cost conscious and purchase 
economical equipment, but they also want to make sure they are 
not introducing vulnerabilities into their network. How do 
these providers weigh the tradeoffs in making these decisions?
    Mr. Johnson. I think that is one of the central questions, 
sir. And it depends on who the provider is. I think most of the 
large providers are aware of and can take other options than 
some of the companies that have been identified as particular 
concern.
    With smaller providers who operate on much smaller margins, 
it becomes a much more difficult question. And I think 
according to our--you know, according to the public record from 
our Government and the intelligence community, that has been 
part of the reason why we are concerned about Huawei and ZTE in 
particular, because the Chinese government knows that, the 
companies knows that, and so they can undercut the price. And 
you hear anecdotes about the company sales approach is 
essentially tell me what your lowest competitor's price is and 
I will undercut it.
    Mr. Costello. And let's talk about rural providers. How do 
we mitigate the risk to come along with that equipment, 
equipment obviously purchased at below market rates? Is there a 
risk that if we ban certain types of equipment, it will 
increase the cost or time for expanding broadband access?
    Mr. Johnson. I think there is a risk of a disruption, and 
that is why I think this process needs to take place very 
deliberately and expeditiously. It needs to have clear guidance 
to the players about what is going to happen when, what they 
need to do, what they need to be aware of. And any disruption 
should be dealt with through that process. But I do think--I 
have got some faith in the fact that there are lots of other 
competitors who would love to keep competing in a competitive 
market and not essentially be frozen out of certain parts of 
the market by uncompetitive, undercutting of prices.
    So I think that if those two companies are restricted in 
some way from certain parts of the market, I am very confident 
that the market will respond, it will send a signal to other 
players in the market that, hey, there is reason to play here, 
because you are not going to be undercut in an uncompetitive 
way. And if there are any vacuums, they will be quickly filled.
    Mr. Costello. So far we have been able to successfully 
limit our risk by managing the standards bodies. Is this method 
sustainable? And I will ask an ancillary question, is 
leveraging the transparency aspect of standards bodies enough 
or can nefarious actors still engineer proprietary technologies 
but introduce threats to the networks while still complying 
with the agreed-upon standard?
    Mr. Johnson. That is a great question. I will say a piece 
and then defer to Dr. Clancy, who is an expert on these issues. 
But the sort of soft power of shaping the standards environment 
is something that is very important, something that the United 
States has really led through its standards approach over the 
past several decades. And the Chinese have recognized that, and 
now they are throwing a lot of resources at these standards 
discussions and standards bodies to help shape the field in 
such a way that it benefits their products and gives them 
intellectual property benefits that last a lot longer.
    But I will defer to Dr. Clancy because I think he's 
participated in this process.
    Dr. Clancy. I would agree. I believe that--my observation 
of China's role on standards bodies has been primarily that 
they are looking to move their role into the innovation and IP 
creation, and that is critical to the standards process, away 
from simply manufacturing devices. And so as they look to sort 
of professionalize their telecom ecosystem and be out in front, 
standards is one of the ways that they are leveraging that.
    I do believe in the open and transparent processes in 
standards, so I am not worried about sort of slipping in back 
doors in the standards, but there is, as Mr. Johnson noted, 
sort of this soft power influence in which companies 
technologies end up getting preferred and written into the 
standards.
    Mr. Costello. Semiconductors and microelectronics have 
comparative advantage, I think, in standard setting focus. From 
a securities standpoint, are network operators left at a 
competitive disadvantage?
    Dr. Clancy. Specifically with respect to their use of----
    Mr. Costello. In terms of power in the standard setting 
bodies.
    Dr. Clancy. So, I mean, in the standard bodies that I have 
been involved in, it has been basically the more internet 
Ciscos and Qualcomms and those sorts of companies that are 
really leading those standards efforts here from the United 
States. I think that that then translates down into silicon 
when you go to manufacture the product. I am not sure if quite 
I understand your question, though.
    Mr. Costello. Well, I am out of time, so we will follow up 
afterwards.
    Thank you. I yield back.
    Mrs. Blackburn. Mr. Walberg, you are recognized.
    Mr. Walberg. Madam Chairman, I thank you for waving me on 
this subcommittee. It is of real interest, the subject today.
    Ms. Sacks, one of the challenges we are talking about in 
our discussions on domestic manufacturing capability, we are 
also talking about our ability to identify emerging 
technologies and bring them to commercialization for both U.S. 
and global markets. My colleagues today have expressed a need 
for a national strategy that addresses threats to our 
telecommunications networks to competition in the supply chain 
and to national security.
    Can you elaborate a bit more on how human capital, those 
people who know how to do this stuff and can be creative with 
integrity, plays into such a national strategy?
    Ms. Sacks. Human capital is one of the areas in which our 
technology development process is actually very interconnected 
with China. We work closely with engineers in China, there are 
a lot of very highly skilled, talented engineers coming out of 
China. We have research centers that are highly interconnected. 
And so this is an area where there are possible national 
security risks that need to be examined, but we also need to 
examine what are the economic and the innovation benefits that 
come from some of that interconnection on human capital. So we 
should incorporate that into the discussion as well because I 
think that there are potential downsides and upsides to that 
level of interconnection.
    Mr. Walberg. What can Congress do to help to lead on this 
part of the puzzle?
    Ms. Sacks. Let me get back to you on that one.
    Mr. Walberg. OK. I take that as an interesting answer and 
look forward to the answer.
    One of the challenges when confronting threats to our 
supply chain is the truly global nature of today's ICT supply 
chains. As vendors that provide potentially vulnerable 
equipment continue to improve the quality of their products and 
services and gain global market share, the question is, what 
can we do to ensure our domestic providers are left with no 
other option than to procure equipment from these vendors?
    Ms. Sacks.
    Ms. Sacks. I think that there are three main options, all 
of which, again, have downsides and are challenging. One is we 
need to think about investing in ourselves but in a way that 
doesn't replicate the China model so that we are not leaving it 
up to the Government to pick winners and losers but enabling 
R&D and enabling education; an investment in our own companies 
to be leaders in areas like 5G. We also have to think about 
what are the software solutions from a mitigation standpoint 
that we can use, given the fact that there likely are going to 
be companies like Huawei and ZTE in the global supply chain. 
And an isolationist approach is not necessarily going to be to 
our advantage either and could put us in a backwards technology 
position. So there is a mitigation perspective as well as an 
investment perspective on our own side.
    Mr. Walberg. So it is not just us building better stuff 
then, as some would say would be in our best interest.
    How does our ability to domestically source our own 
equipment, though, work in a world where the ICT supply chain 
is increasingly globalized? And then second question I would 
ask with that, can you explain how we should take a risk 
management approach to examining our domestic manufacturing 
capability?
    Ms. Sacks. I think Dr. Clancy has outlined a very effective 
risk management approach. I will let him elaborate on that.
    Dr. Clancy. Certainly. I mean, I think if you look at 
domestic products, again, the iPhone which I brought up in my 
opening statement, the majority of that is sourced 
internationally. So while we view that as domestic product, 
very little of the components and the manufacturing itself are 
domestic. So I think that we need to be cautious to not just 
look at the company that is selling it to us, selling the end 
product, but also look at all the pieces behind the curtain 
that went into manufacturing that as part of an overall risk 
management approach to supply chain. And that should apply not 
only to acquisition of Huawei and ZTE equipment from--as part 
of some network, but also look at the components that would go 
into the production of a U.S. device as well.
    Mr. Walberg. Thank you. Good advice.
    And, Madam Chairman, thank you for letting me wave on, but 
it is important to understand what assistance we are using, all 
the parts that are there, but to sure do our level best to make 
sure that we are secure for all sorts of reasons. So thank you.
    I yield back.
    Mrs. Blackburn. The gentleman yields back.
    And as you can see, there are no additional Members who are 
present and ready to ask questions. So we thank you all for 
being here.
    As we conclude today, I ask unanimous consent to enter the 
following documents: a letter from Sicuro Innovations, a letter 
from Commissioner O'Rielly, a U.S.-China Commission report, 
articles by Samm Sacks and Andrew Hunter of CSIS, two Wall 
Street Journal articles, and the ZTE denial order, and one 
article from The Hill.\1\
---------------------------------------------------------------------------
    \1\ The U.S.-China Commission report has been retained in committee 
files and also is available at  https://docs.house.gov/Committee/
Calendar/ByEvent.aspx?EventID=108301. The other information appears at 
the conclusion of the hearing.
---------------------------------------------------------------------------
    Without objection, so ordered.
    Pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record, and I ask each of you witnesses to respond to those 
within 10 days of receipt of the questions.
    Seeing no further business to come before the subcommittee 
today, without objection, the subcommittee is adjourned.
    [Whereupon, at 12:01 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                Prepared statement of Hon. Anna G. Eshoo

    Today's hearing on supply chains is about an issue I go 
very far back on. I served on the House Permanent Select 
Committee on Intelligence for nearly a decade, and during that 
time we had close examinations of supply chain manufacturers, 
including Huawei and other foreign manufacturers, and the 
serious challenges they represented.
    I took these issues seriously more than a decade ago, and I 
still do today. When my term on HPSCI was ending, I 
specifically asked the then-chairman, Mike Rogers, to commit to 
pressing on the threats to our national security that Huawei 
presented.
    When our country was attacked on Sept. 11, 2001, we 
possessed something that was essential in the age of 
terrorism--our telecommunications systems. They were and they 
still are part of the backbone of our national security and 
intelligence operations.
    Fast forward to 2018, when the sophistication of what these 
technologies can do has increased exponentially, as well as 
what is manufactured. There is far more that today's companies 
in this sector on whom we rely for our communications can know, 
what other companies have access to, and whom they buy from. 
And we know for a fact, based on years of scrutiny which I was 
a part of, that certain companies, particularly foreign 
enterprises, do not have our national interests at heart. Thus, 
we have no business doing business with them. Period.
    Congress can prevent this infiltration of our critical 
communucations systems. The number one responsibility of every 
Member of Congress is contained in our Oath of Office, `protect 
and defend' our citizens from enemies external and internal. We 
cannot allow foreign entities to compromise our 
telecommunications sector, because it would create a direct 
challenge to our national security. I'm bewildered that after 
so many years of hearings and investigations that we continue 
to consider whether we should use parts from companies whom we 
know have adversarial intentions against our country. The 
answer to this consideration is NO.

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
